<html>
<title> - CHINA'S CHILDREN: ADOPTION, ORPHANAGES, AND CHILDREN WITH DISABILITIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 CHINA'S CHILDREN: ADOPTION, ORPHANAGES, AND CHILDREN WITH DISABILITIES
=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 21, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







                           U.S. GOVERNMENT PRINTING OFFICE
83-513                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



Senate                                    House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Robertson, Nancy, president and CEO, the Grace Children's 
  Foundation, New York, NY.......................................     1
Johnson, M.D., Dana, International Adoption Clinic, University of 
  Minnesota, MN..................................................     5
Cox, Susan Soon-Keum, vice president, Holt International 
  Children's Services, Eugene, OR................................     9

                                APPENDIX
                          Prepared Statements

Robertson, Nancy.................................................    30
Johnson, M.D., Dana..............................................    34
Cox, Susan Soon-Keum.............................................    39

                       Submission for the Record

Youtz, David, president, Families With Children From China of 
  Greater New York...............................................    43


                           CHINA'S CHILDREN:



                       ADOPTION, ORPHANAGES, AND



                       CHILDREN WITH DISABILITIES

                              ----------                              


                        MONDAY, OCTOBER 21, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room SD-215, Dirksen Senate Office building, Ira Wolf 
(staff 
director) presiding.
    Also present: John Foarde, deputy staff director; Jennifer 
Goedke, Office of Representative Marcy Kaptur; Susan Weld, 
general counsel; and Tiffany McCollum, U.S. Department of 
Commerce.
    Mr. Wolf. I would like to welcome everyone to this 
roundtable of the Congressional-Executive Commission on China. 
We have three excellent representatives of various groups to 
describe their own experiences on this important issue of 
adoption and orphanages in China.
    Today we have Nancy Robertson from the Grace Children's 
Foundation, Dr. Dana Johnson from the University of Minnesota, 
and Susan Cox from Holt International Children's Services.
    Let me just turn this over for a minute to John Foarde, the 
deputy staff director of the Commission, because he is the 
member of our staff who worked to put today's roundtable 
together.
    Mr. Foarde. Thank you, Ira.
    Nancy, Susan, Dana, thank you so much for coming and 
sharing your views with us today. I am also particularly 
pleased that we have a very useful statement from an 
organization called Families With Children in China, 
represented by David Youtz, here today, and a number of other 
friends that are here to listen and learn about children's 
issues, particularly adoption, orphanages, and children with 
disabilities.
    I will turn this back to Ira. Thanks.
    Mr. Wolf. Nancy, why don't we start with you?
    Please, go ahead.

  STATEMENT OF NANCY ROBERTSON, PRESIDENT AND CEO, THE GRACE 
              CHILDREN'S FOUNDATION, NEW YORK, NY

    Ms. Robertson. Thank you. My name is Nancy Robertson and I 
am representing the Grade Children's Foundation [TGCF]. We are 
based in New York City. I am delighted to be here today.
    Thank you Ira Wolf and John Foarde and thanks to the 
Congressional-Executive Commission on China for including me in 
this timely roundtable discussion on China's children, 
adoption, orphanages, and children with disabilities.
    I am honored to speak on behalf of the Grace Children's 
Foundation, an organization that has as its priority the 
educational, 
medical, and humanitarian needs of the children in Chinese 
orphanages.
    Although some of the focus of today's events revolves 
around the issues of human rights and legal reforms within the 
People's Republic of China [PRC], my input will not serve to 
advocate for, or pontificate on, these topics.
    My presence and peripheral involvement in the political and 
social changes taking place in China revolves around one 
specific clientele, one specific special interest group: 
abandoned children in Chinese orphanages and foster homes.
    The story of the Grace Children's Foundation really began 
on Christmas Eve, 1994. My husband Brooks and I arrived in Hong 
Kong earlier that day, just as the sun was rising, and flew on 
to Shanghai. We had begun the incredible journey to adoption 
and our daughter, Grace.
    Christmas carols were blasting in the background when we 
arrived at the hotel and I was so excited I could barely 
contain myself. Brooks was steeling himself until the right 
moment, guarding me from any possible disappointment.
    We went to China without an agency, which at that time was 
permitted, pretty much by the seat of our pants. We arrived at 
the hotel and we were informed that we should unpack and 
freshen up and that our daughter would be there in 2 hours. I 
smiled to myself as we rode up to the room in the elevator. All 
the while, I was thinking this is it, we are finally here.
    Then I panicked like I never have before. I told Brooks 
that I had changed my mind. He looked at me and said, ``What do 
you mean? '' I had been the driving force. Although he was very 
eager, it was I who pushed everything along. I became terrified 
at the last minute, I imagine, much like a woman about to give 
birth. All right. That was great, but I want to go home now.
    I shut myself in the bath and contemplated what I had done. 
What if I ruined my marriage? This all sounded good, but what 
would be the reality? What if I did not like her as much as I 
thought? What if she did not like me? I dressed. The phone rang 
and the messenger said, ``Hello, Mrs. Robertson. Your baby is 
in the lobby.'' I said, ``Send her up.''
    Send her up? What was this, room service? I panicked 
further and propelled Brooks to the front door, pushing him 
through the crack saying, I cannot do this. You go and explain 
that I cannot do this. Then I shut the door.
    Then I got hold of myself. I squared my shoulders, opened 
the door, and walked out into the corridor. There I saw Brooks 
holding the most beautiful person I have ever seen. He walked 
toward me and handed her to me and I said, ``I love you, 
Grace.'' From that moment until this, I cannot imagine my life 
without her. On that Christmas Eve I saw in her eyes all of the 
children.
    Inside the People's Republic of China there are thousands 
of children living in orphanages and foster homes. The 
overwhelming majority of these children are girls. Few possess 
more than the most basic clothing and many of them struggle 
with treatable medical problems.
    Without formal schooling or the crucial anchor of family, 
these orphan children face a lifetime of struggle for even the 
most basic employment. These are the children who wait.
    The Grace Children's Foundation, through its programs and 
relationships, has been allowed passage through what has 
traditionally been a wall of privacy in the orphanages.
    In 1994, Nancy and Brooks Robertson adopted their daughter 
Grace in Shanghai. Like other adoptive parents, they were moved 
by the plight of the orphan children who remained behind, most 
of whom have little chance of ever being adopted.
    The Robertsons and like-minded parents held discussions 
through 1996 about the creation of an organization with a 
mission to improve the conditions under which these children 
live.
    The parents' group formed an organization that was 
incorporated in January 1997 as the Grace Children's 
Foundation. Since its founding the Grace Children's Foundation 
has been singularly dedicated to bettering the lives of the 
children who wait.
    The Foundation acknowledges that the Chinese Government and 
its people have a plan to alleviate the dire circumstances of 
the children. It is China's plan and they are the architects. 
The Grace Children's Foundation and others are some of the 
builders on the team.
    The Grace Children's Foundation works in cooperation with 
representatives of Chinese orphanages and other governmental 
and quasi-governmental organizations who welcome the concepts 
and provided access into the orphanages.
    This professional credibility has allowed TGCF to work with 
the Ministry of Civil Affairs and the China Charity Federation 
which, since April 2000, has joined with the Grace Children's 
Foundation to assist in all three areas of the Foundation's 
work.
    In 2002, TGCF received permanent status as a publicly 
supported charity. This type of cooperation, fostered by a 
focus on children, leads to better relations between the United 
States and China. If our two nations can cooperate on meeting 
pressing human needs, we can build on that and cooperate in 
other areas.
    Over the past 5 years the Grace Children's Foundation, with 
the support of individuals, foundations, corporate sponsors, 
medical facilities, educational institutions, and merchant 
donors has created pilot programs to support the orphans of 
China.
    The Grace Children's Foundation's health initiative has 
brought 10 orphans to the United States for life-altering 
surgeries. The children and their caregivers were provided 
transportation through an ongoing partnership with Northwest 
Airlines and its Friend of China Program.
    The first five children from the Luoyang and Beijing 
Children's Welfare Institutes were brought to the United States 
in April 2000 to the University of Virginia Medical Center 
where they received craniofacial surgery.
    In January 2001, TGCF and Medical City Dallas Hospital and 
the North Texas Hospital for Children made possible the 
treatment of five more children from Shanghai Children's 
Welfare Institute by surgeon Jeffrey Fearon, M.D., who has 
since become the chair of our Medical Advisory Board for the 
Foundation. All 10 of these surgeries resulted in permanent and 
dramatic improvement.
    In August 2001, TGCF began its work with Orbis 
International to link the orphan children to adequate 
ophthalmic care in China. The Foundation is preparing for four 
more children from the Tianjin, Chengdu, and Luoyang Children's 
Welfare Institutes to receive highly specialized treatment in 
orthopedics, ophthalmic, and craniofacial care at Children's 
Hospital of New York Presbyterian, St. Luke's Roosevelt 
Hospital, and NYU Hospital for Joint Disease in November 2001.
    All of the above medical staffing--the children who have 
come to the United States have benefited from the services of 
15 physicians and dozens of adjunct medical personnel--surgery 
facilities, housing, food and transportation were donated to 
the Grace Children's Foundation.
    One of the children coming to New York this year is a 
little 5-year-old girl from Tianjin. She has been waiting a 
lifetime to have an operation for severe scoliosis. TGCF is 
preparing for her medical care and foster care. We await her 
arrival with much enthusiasm.
    Of the 10 children who were taken care of in United States 
hospitals 7 have been adopted, and the other 3 are now in 
foster or specialized care in China.
    One of the children who came to the United States for 
surgery now lives in Richmond, VA with her adopted family, and 
recently visited New York. She is now 5 years old and lives 
with her 
mother, father, sisters, and brother. She helped to unveil the 
aircraft at the launch of Northwest's Friend of China Program 
when we left from Shanghai on our first medical mission to UVA 
in Charlottesville.
    When I carried her up the stairs to the aircraft, I 
whispered in her ear that she would never be lonely again. I 
know that her life is good and she has brought so much joy and 
happiness to everyone who knows her.
    TGCF is currently collaborating with American-based Chindex 
International, Inc. and its newly formed foundation, American 
Education and Health Foundation, in Beijing. The combined 
effort has yielded a rotating medical service to serve the 
orphan children directly in China at United Beijing Family 
Hospital, which is owned by Chindex.
    American medical personnel from across the United States 
who have been touched by the plight of the orphan children have 
pledged their support to travel to China on a rotating basis 
with services in orthopedics, internal medicine, craniofacial, 
cardiac care, etc.
    With core medical staff residing in China, the children's 
care is ongoing rather than episodic. AEHF believes, as we do, 
that ``. . . improving the health of people in other countries 
makes humanitarian, strategic, and moral sense.''
    We are also grateful to Jennifer Weippert, who has joined 
Grace Children's Foundation with her ``The Red Thread'' 
project. The proceeds from Red Thread's beautiful gift baskets 
directly benefit the children coming to the United States for 
surgery.
    I am not going to speak about our Education Initiative in 
any detail for time's sake, as we are still working out the 
details at the moment and we are looking toward a collaboration 
with Half the Sky Foundation to expand their base, which is 
infant and toddler. So, we are looking toward going K through 
8.
    Brown University student Yaniv Gelnik, who is here today, 
has just returned from a month in China, where Brown 
University's Medical School and Education Department are 
solidly behind both of these programs.
    In an ongoing effort through its Humanitarian Aid 
Initiative, the Grace Children's Foundation, with sponsorship 
from United Cargo, has sent hundreds of thousands of dollars 
worth of donated clothing, shoes, bedding, wool, and fleece 
accessories, and other necessities to the orphan children in 
China.
    We won an award for an 8-minute film, ``Children Who 
Wait,'' last year. I was honored to carry the Olympic torch, 
sponsored by Chevrolet and Coca-Cola, on December 23, 2001, 
representing the Foundation's work.
    The reason I mention this is that Coca-Cola has just 
generously arranged for an Olympic torch to be passed at the 
end of this year from The Grace Children's Foundation and all 
the children, actually, to the Minister of Civil Affairs, Doje 
Cering, in Beijing in a ceremony to thank the Ministry for the 
outstanding work they have done on behalf of the adopted 
children from the United States and the children who wait.
    The Grace Children's Foundation is well situated to help 
China's orphans immediately and into the future in a way that 
bridges the complex divide that often separates China and the 
West.
    The positive, though unintended, diplomacy these children 
have generated is remarkable. In what other venue between our 
two countries do we continuously work with a feeling of hope 
and accomplishment? No one who has had the privilege of meeting 
or working on behalf of these orphan children has remained 
untouched by their spirit and poise.
    The children have unwittingly become Ambassadors--bridges, 
actually--between our two great nations. The hope they 
represent, the cooperation between representatives of our two 
countries that they have engendered, the mutually acknowledged 
respect for the life they embody, they continue to serve as 
catalysts for understanding, compassion, and respect between 
our countries.
    I have been truly honored to stand with these children and 
see the love, beauty, and inextinguishable courage to work 
hand-in-hand with those responsible for their care and well-
being, to realize that true diplomacy and hope can be borne out 
of such meager 
beginnings.
    Thank you very much.
    [The prepared statement of Ms. Robertson appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    Dr. Johnson.

        STATEMENT OF DANA JOHNSON, M.D., INTERNATIONAL 
ADOPTION CLINIC, UNIVERSITY OF MINNESOTA HOSPITAL, MINNEAPOLIS, 
                               MN

    Dr. Johnson. My name is Dana Johnson, and I am delighted to 
be here today representing the International Adoption Clinic at 
the University of Minnesota, which is the first, and is now the 
largest, medical facility devoted to the health and 
developmental needs of international adoptees.
    For thousands of Americans, the distance, and sometimes 
abstruse debate on human rights in China, has taken literal 
human form in an abandoned Chinese child placed for adoption in 
their family.
    Since the promulgation of the 1991 adoption law which first 
permitted international adoption, over 28,000 Chinese children, 
overwhelmingly girls, have been placed in American families.
    This surge in Chinese adoptions can be accounted for, in 
part, by the increasing availability of Chinese children during 
an era where principal referring countries such as Korea have 
limited the number of children available for placement.
    However, a variety of factors has fueled this growth, 
including the historic preference of Americans for adopting 
girls, availability of children at an earlier age than many 
other countries, acceptability of single parents, and an 
intense interest in Chinese culture by many adoptive families.
    Over the past decade, adoption paperwork, fees, and in-
country processing have been standardized, with few surprises 
awaiting families when they arrive in China. Another fact that 
stands in stark contrast to adoptions in other countries is 
that there is little evidence of corruption in the adoption 
process.
    Officials at the China Center for Adoption Affairs take 
their work very seriously and diligently attempt to match the 
characteristics of the adoptive family with those of a 
potential child. They have been anxious to improve the process 
of child placement, 
welcomed input from adoption professionals, and have taken 
suggestions to heart.
    Since 1998, my staff and I have spent significant time in 
eight social welfare institutions in China and have spoken to 
adoptive families who have visited dozens more. My overall 
impression is that directors and caregivers are extremely 
committed to the children and their care. Facilities are 
continuing to improve and there is a clear desire to do as much 
as possible to provide an optimal outcome.
    The medical conditions afflicting Chinese adoptees are 
those seen in international adoptees worldwide. Latent or 
active tuberculosis infection, hepatitis B, and intestinal 
cutaneous parasites are the most common infectious diseases. 
Hepatitis C and syphilis are quite uncommon, and HIV infection 
has yet to be reported in an American Chinese adoptee.
    As in most countries, the most common medical problems are 
deficiencies in micronutrients such as iron, iodine, calcium, 
phosphorus, and vitamin D. Chinese adoptees also share with 
many international adoptees a significant risk for being under-
immunized against common childhood infectious diseases.
    One problem that does occur more commonly in Chinese 
adoptees is a higher risk of having an elevated blood lead 
level. Each year, I review 2,000 adoption referrals and see 300 
children for post-
arrival examinations from around the world.
    From this perspective, I strongly feel that officials in 
China attempt to place children who are healthy as possible. 
This impression is so strong that I have recommended adoption 
from China to family members. I have a niece, Sydney Ling-Ling 
Johnson, and also have close friends who have adopted from 
China.
    The glowing reports on international adoption must be muted 
in the case of domestic adoption in China. In researching this 
area, I have relied heavily on the work of Dr. Kay Johnson, who 
is a 
professor of Asian Studies and Politics at Hampshire College in 
Amherst, MA, and the adoptive parent of a Chinese child.
    Abandoned, disabled children of both sexes have been the 
traditional inhabitants of orphanages in China. However, in 
times of adversity, the Chinese preference for male children 
shifts the gender balance of abandonment clearly toward infant 
girls.
    Most contemporary Chinese view the ideal family as a boy 
and a girl. However, traditions of property transfer, 
continuation of the filial line, and care during old age, 
essentially ensure that the rate of abandonment for healthy 
girls will dramatically increase during times of misfortune.
    Until the early 1990s when international adoption began 
directly infusing financial support, social welfare 
institutions in China were chronically under-funded. The influx 
of abandoned girls forced orphanage directors to balance the 
marginal existence of the majority of children in their care 
with the costly medical needs of a small number of children who 
were critically ill.
    Under these circumstances, they are forced to practice 
triage, as do orphanages around the world. Unfortunately, the 
placement of abandoned girls in adoptive families in China 
remains subservient to the goals of population control.
    Despite the limitations imposed by the law, Dr. Johnson's 
work has identified a very strong desire of Chinese couples and 
singles to adopt healthy infant girls to complete their ideal 
family.
    Such adoptions are generally not through official channels, 
and may total between 300,000 to 500,000 per year. These 
adoptions are more common in rural areas and involve girls more 
than boys.
    The major problem encountered by Chinese families adopting 
outside the legal framework is official recognition of their 
child, which ensures access to such entitlements as education 
and health care.
    As noted by Dr. Johnson, the plight of these unregistered 
children is ironic, since China has insisted on guaranteeing 
that Chinese children adopted abroad have full citizenship and 
fully equal treatment in their adoptive families.
    A disproportionate percentage of children who reside within 
social welfare institutions are those abandoned because of 
primary medical disabilities. While many of these children have 
conditions that are easily treated within a sophisticated 
medical system, they pose enormous problems for families who 
have neither access, nor financial resources, to pay for this 
care.
    Therefore, even though the one child policy exempts 
children with disabilities, Chinese families with handicapped 
children face powerful forces that encourage abandonment.
    I have participated in a number of training courses in 
China and observed significant progress in pediatric 
rehabilitation over the past 6 years.
    A driving force behind this change is Deng Pufang, the 
eldest son of the former Chinese leader Deng Xiaoping. During 
the Cultural Revolution, he was persecuted so vigorously that 
he sustained a severe spinal injury and since then has been 
wheelchair-bound.
    Due in large part to the prominence of his family and his 
position as the president of the Chinese Federation for the 
Disabled, it is common to see ramps, handicapped restroom 
facilities, and redesigned streets and sidewalks that have 
eliminated curbing at crosswalks.
    Secondary disabilities may prove even more daunting for 
institutionalized children. Less obvious than a cleft lip or 
club foot, these problems have been brought about by a lack of 
a nurturing environment during the early formative years of 
life.
    Secondary disabilities affect both normal and disabled 
children within the orphanages and may include irreversible 
deterioration in growth, cognitive, language, and social 
skills, as well as emotion regulation.
    I am pleased to serve on the board of an organization that 
is attempting to directly prevent the development of secondary 
disabilities within social welfare institutions.
    Half the Sky Foundation, named for the Chinese adage, 
``Women hold up half the sky,'' is an organization committed to 
helping the children who remain in China's orphanages do more 
than merely survive. Their mission is to enrich the lives and 
enhance the prospects for these forgotten children by providing 
infant nurture and early childhood education centers inside 
orphanage walls.
    To fulfill this mission, Half the Sky, in cooperation with 
the China Population Welfare Foundation and the China Social 
Work Association, creates and operates two programs: Baby 
Sisters Infant Nurture Centers and Little Sisters Preschools.
    The Baby Sisters Infant Nurture Centers employ Half the 
Sky-trained nannies from the local community to cuddle, love, 
and provide orphan babies the physical and emotional 
stimulation essential to the normal development of brain and 
physiological well-being.
    In Little Sisters Preschool, Half the Sky-trained teachers 
use a unique and progressive curriculum that blends principles 
of the Reggio Emilia approach to early childhood education with 
contemporary Chinese teaching methods. By the end of 2002, Half 
the Sky will be offering services to over 1,200 children in 
eight institutions.
    From my perspective, few countries have made as much 
headway over such a short period of time in improving 
conditions for institutionalized children and providing an 
array of interventions for those who are disabled.
    International adoption benefits not only those who are 
placed, but also those who remain, by improving conditions 
within orphanages. The adoption process itself goes as smoothly 
as it does anywhere in the world, and outcomes from the 
perspective of adoptive parents and adoption professionals are 
overwhelmingly positively.
    Finally, the increase in officially recognized domestic 
adoptions, following revision of the adoption law in 1999, 
offers hope that domestic adoption will be supported and that 
those homeless children welcomed into Chinese families outside 
the letter of the law will enjoy the full rights and privileges 
guaranteed in China's own 
Constitution.
    Thank you.
    [The prepared statement of Dr. Johnson appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Susan.

    STATEMENT OF SUSAN SOON-KEUM COX, VICE PRESIDENT, HOLT 
         INTERNATIONAL CHILDREN'S SERVICES, EUGENE, OR

    Ms. Cox. Good afternoon. I want to thank you for the 
opportunity to be here today. My name is Susan Soon-Keum Cox. I 
am vice president of Public Policy and External Affairs for 
Holt International Children's Services. We are located in 
Eugene, OR, and we helped to pioneer intercountry adoption from 
Korea in 1956.
    I am also a founding member of an organization called The 
Advisory Council on Intercountry Adoption. It is a 
collaboration of organizations that are interested in and 
concerned about issues of intercountry adoption.
    I am going to speak today about what I see as a variety of 
parallels with Chinese adoptions and Korean adoptions. I think 
there are many things within our history that can be learned.
    In the beginning, in 1956, when adoptions began from Korea, 
there was no road map. There was no previous history. There was 
no way to know how adoptions were going to really affect the 
lives of the children, except that for the children who were 
orphaned as a result of the war, intercountry adoption was 
their only hope for survival.
    I was adopted in 1956, and I was the 167th child to come 
through the process. Since that time, more than 200,000 
children have been adopted worldwide. Of those children, 
150,000 are Korean, and 100,000 of those children have come to 
the United States.
    So for those people in the 1950s who worried about such 
questions as: Could these children mainstream? Would this be a 
process that would work? I think that we have proven that 
intercountry adoption can, in fact, be a viable opportunity for 
children to have a family.
    However, intercountry adoption should never be the first 
line of defense for children. It should be a viable solution 
when children are not able to stay with a birth family, when 
they cannot be reunited with a birth family, or when domestic 
adoption is not possible. Those priorities really do need to be 
given attention.
    Everything about adoption has changed since my parents 
adopted me in 1956, with a couple of exceptions. One, is that 
it continues to be highly sensitive as an issue, both in the 
sending and receiving countries.
    It is also a perfectly acceptable opportunity for children 
to have a family. However, what we know now, but we did not 
know in the beginning, was that you cannot completely separate 
a child from his or her culture and heritage.
    In the 1950s, the most important criterion was that 
children somehow be acclimated to the country and culture of 
their adopted family and nationality. But what we have learned 
is that those things happen by osmosis.
    The greater opportunity and the greater challenge, is to 
help children stay connected to their country and heritage. 
That is one of the things about Chinese adoption that has been 
so positive.
    From the beginning, families who have adopted children from 
China embraced the culture and ethnicity of their adopted 
children, and they themselves adopted that for their own 
family, not only for the child that they were adopting, but for 
the rest of their family as well.
    One of the things that I think is important to acknowledge, 
is that as China emerges into the global consciousness, there 
really are lessons to be learned from the Korean experience.
    Both countries share an impressive record of achievement in 
positioning themselves in the world marketplace, and they also 
share a shadowy history and reputation regarding a variety of 
human rights issues.
    I think that overseas adoption is a social practice that is 
highly visible, and it is sometimes controversial on both sides 
of the ocean. Nearly 30,000 children, primarily girls, have 
been adopted from China.
    Compared to the overall population of China, this is an 
inconsequential demographic. However, it is also misguided and 
a loss of an important opportunity to minimize the impact of 
that population on the social and cultural future of China, as 
well as the 
social and cultural context of the families in the United 
States who adopt them.
    I believe that intercountry adoption, from the beginning, 
has been a bridge between cultures, countries, and people, and 
no other population of adoptive families have promoted that to 
the same 
degree as families adopting from China.
    Adoptions from China began at the same time that people in 
households around the country were also accessing the Internet 
and staying connected to each other through virtual 
communities. This had a dramatic impact on the way adoptive 
families related to themselves, to each other, to the children 
they were adopting, and to the agencies who were facilitating 
their adoption.
    As those children have come home, the results have provided 
enormous opportunities for those children who were adopted in 
provinces throughout China to also stay connected with each 
other.
    While intercountry adoption is a bridge, it is very 
important that we are careful that it does not become hostage 
to political agendas. It is easy for that to happen.
    Frankly, one of my concerns about U.S. implementation of 
The Hague Convention, with the central authority and the 
accrediting authority both being at the State Department, is 
that in some ways this could become a political agenda as part 
of foreign policy. It is very, very important that the adoption 
community remain focused on making sure that that does not 
happen.
    A couple of examples of how this is possible would be, in 
Romania, when they were trying very hard to receive MFN [most-
favored-nation] status. There were a number of congressional 
offices that were relating the number of children being placed 
for intercountry adoption in the United States with Romania's 
application for most favored nation tariff status.
    The European Union has restricted intercountry adoption 
from Romania for political reasons. Consistently, we need to be 
careful that that does not happen as a matter of practice.
    Other agendas that affect intercountry adoption, and 
particularly from China, are those who feel so strongly as 
anti-abortion activists and the role that forced abortion has 
had within China with 
respect to the one-child-per-family policy.
    The ongoing false stories about adoption as a way to obtain 
body parts to be used for children in this country continues to 
be a part of adoption around the country, around the world. 
That is a reality that I think has to be addressed. It is 
another indication of how highly sensitized we need to be about 
adoption.
    Another lesson that Korea certainly learned about 
intercountry adoption was how ambushed they felt in 1988 when 
they hosted the Olympics. I do not believe that anyone there 
expected that Korean adoptions would become so highly front and 
center in the news media.
    Everyone from the ``Today'' show to The Progressive 
magazine talked about the largest export from Korea not being 
Hyundais but babies. In anticipation of hosting the Olympics in 
the future, I think it is imperative that China both prepare 
for, and expect, that kind of scrutiny for themselves.
    The other things that have had a very positive influence on 
adoption activity or child welfare policy in Korea has been the 
emergence of domestic adoption. While that is not a traditional 
way for families to come together in Korea, as families in 
Korea have 
observed international adoptions, it has helped them to better 
understand that relationships of families who come together 
through adoption are as pure and true as those who come 
together by birth.
    It is also necessary that we recognize that centuries of 
tradition cannot be overcome or changed in a couple of 
generations. We must be patient and acknowledge baby steps 
forward rather than huge leaps, where sometimes you fall down 
and you go backward.
    From the beginning of adoptions from China, there have been 
stories about what will happen to these children when they want 
to go back to China and look for their beginnings, the question 
of adoptees, not only international adoptees but every child 
who wants to know, ``where did I come from.'' For international 
and interracial adoptees, you have the added nuances of, ``who 
do I look like,'' and ``who am I really? ''
    Being the bridge between two cultures and nationalities is 
very often a challenge, and it has been assumed that, because 
so many of the children who have been adopted from China were 
abandoned, that the opportunity for search and reunion in their 
future does not exist. I predict that there will be a variety 
of ways that that happens.
    It was the very same thing that was thought about Korean 
adoptions, that children were abandoned, there was no way to 
know, where did they come from and who were they connected to.
    But as someone who has that history myself, I can also tell 
you that, as late as 40 years later, you can find a birth 
family. That was my experience, although I did not believe it 
was possible for me when I was growing up.
    Another thing that is important to remember, is that even 
if an adoptee cannot be reconnected to his or her birth family, 
the wonderful thing is that you can always stay connected to, 
and be reunited with, your birth culture and heritage. That is 
a legacy that families from China and the adoption community 
have worked very hard to preserve.
    In conclusion, I would just like to say that at the heart 
and 
center of all the activity and attention that is given to 
adoption are the adoptees themselves and their life 
experiences. Chinese-American adoptees will be greatly 
influenced by the collective energy and tension that has been a 
part of how adoption from China has developed and emerged.
    By the time China hosts the Olympic Games, many of the 
adoptees will be old enough to have, and voice, their own 
opinion about their birth country and their adoption.
    It is not possible to predict precisely what those thoughts 
will be. But if the Korean experience is any indication, they 
will be a voice that the world should be prepared to hear.
    Thank you.
    [The prepared statement of Ms. Cox appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Is there a difference between China and other developing 
countries relating to conditions in orphanages and conditions 
for abandoned children, or is the situation in China, basically 
the same as in many Third World countries?
    Dr. Johnson. Well, let me answer this by saying that the 
answer to your question is yes and no. Yes, in the sense that 
whenever you have institutional care for children it imposes a 
certain level of disability on kids, irrespective of where they 
are.
    Just a lack of consistent caregivers is an important issue. 
Unless you have a home environment, wherever you are going to 
have an orphanage you are going to find those same problems.
    However, the conditions in orphanages relate directly to 
the economic status of the country, so in China you are going 
to see a wide variation in how things are going. If you get out 
into the rural orphanages where there is not very much money in 
the provinces that have not participated in these huge economic 
turnarounds, then you are going to find situations where the 
kids are not being taken care of very well. If you go to the 
orphanages in the big cities, the situation is much, much 
different.
    I think the other thing that makes a huge difference in how 
kids are cared for within institutional care settings is the 
attitude of the caregivers. The first time I was in Romania in 
1993, things were very gray, life was tough, and the caregivers 
who would come in to take care of the children had enough 
problems at home dealing with their own families and their own 
economic situation that they really did not have very much left 
to give to the kids.
    That has not been my experience over in China where people 
are economically better off than they have been for a long 
time. They are happy. The Chinese orphanages, in general, have 
a higher caregiver-to-child ratio. The people are able to give 
much more to the kids in the orphanages there.
    Ms. Cox. I would just add that I have had the experience of 
visiting orphanages in a variety of countries, and what Dana 
says could not be more true with regard to resources. But it is 
also hugely affected by whoever is the director of the 
orphanage. How they feel about the children, how they feel 
about the importance of care has a huge impact on the way those 
children are treated.
    Typically, orphans in any culture are not considered very 
worthy. Unfortunately, that is reflected very often in the kind 
of resources that are given to any institution. Private 
institutions are likely to have better support.
    Mr. Wolf. One of the issues that the Commission has focused 
on in this first year has been religious freedom in China. One 
of the subjects raised has been the role of religion in 
society, especially in China where the government-provided 
social safety net has 
rapidly disappeared.
    Many people are trying to encourage the Chinese to allow 
more freedom of religious practice and freedom for religious 
groups to help provide those social services. What is the 
linkage, if any, between orphanages in China and religious 
organizations, or is there no linkage at all? Are orphanages 
run by churches, by mosques, by Buddhist temples?
    Ms. Cox. I think, traditionally, humanitarian efforts have 
been established by religious organizations and churches 
throughout the world, and that certainly has not been as much 
of a possibility in China. But I also think, with regard to 
religious freedom, it is so important that you do not connect 
that priority or that policy with children's issues. When you 
do that, it becomes very tenuous.
    I believe personally, when you talk about adoption and 
abortion in the same sentence, that you so polarize the 
conversation that you are not really able to make much progress 
in any direction. I feel the same way with regard to religious 
freedoms.
    Mr. Wolf. Who runs the orphanages that you have visited and 
you have worked with? Who owns the property? Who pays the 
salary of the workers?
    Dr. Johnson. As far as I understand, the Social Welfare 
Department does that. It is a government-sponsored program. 
Many of them wound up being within orphanages that were 
originally opened by religious organizations, but I have not 
been in any that are being run by religious organizations, 
although there are a number of NGOs, as well as organizations 
in this country that have provided support, principally in the 
area of rehabilitation, to 
orphanages.
    Mr. Wolf. All right. Thanks.
    John Foarde.
    Mr. Foarde. Thank you.
    My first question is for you, Nancy Robertson. Are there 
other NGOs like The Grace Children's Foundation from other 
countries that are doing the same sort of work in China?
    Ms. Robertson. Are there other agencies such as ours from 
other countries?
    Mr. Foarde. From other countries.
    Ms. Robertson. Yes, there are. There are a number of them 
emerging from Great Britain. I think Good Rock is one. I am 
familiar more with organizations from the United States that 
are doing incredible work in China, much like our work, more 
than I am of those from outside. But I think Great Britain is 
probably the leader behind the United States.
    Mr. Foarde. So at least from the United Kingdom.
    Ms. Robertson. Yes.
    Mr. Foarde. Are these organizations also working in the 
same sorts of areas that you are, for example, your health 
initiative or your training initiative? Are they doing the same 
sorts of things or are they doing different things?
    Ms. Robertson. I have read a number of pieces of literature 
recently from organizations which are humanitarian in their 
scope and we use the same words over and over again. Yes, we 
are trying to do the same thing.
    Mr. Foarde. Dana Johnson, how much improvement would you 
say that there has been since the inauguration of the China 
Center for Adoptions Affairs [CCAA] in the mid-1990s as opposed 
to the situation before CCAA was established?
    Dr. Johnson. I think, with the development of the China 
Center on Adoption Affairs and under the direction of people 
that have brought it into maturity, certainly the process of 
adoption is much better understood, there is more certainty 
about what is going to happen.
    I think that the one problem that still faces families who 
are adopting from the United States is the waiting period, and 
that is just because adoption from China is very, very popular.
    It would always be nice to have a bigger staff at the China 
Center for Adoption Affairs. But I think, on the whole, things 
have gone extremely well since the Center was set up.
    Mr. Foarde. I heard both you and Susan say that the 
procedures and the hoops that you have to jump through to 
complete an intercountry adoption from China have improved a 
lot in 10 years.
    One of the things that this Commission does is makes 
recommendations to the U.S. Congress about possible legislative 
solutions to problems. I am wondering if you are seeing any 
problems on the United States end of intercountry adoption with 
China that there might be a need for Congress to act on. For 
example, Immigration and Naturalization Service [INS] 
regulations, or fees and procedures, or anything of that sort. 
I would welcome your 
comments on that.
    Ms. Robertson. I would like to make a comment on that. As 
those of us who undertook the experience of adoption, many of 
us have gone on to help other families, in friendship, to do 
this. I have been privileged to help many--several hundreds, 
actually--to 
create this journey.
    The one major obstacle on this end is the INS, that is the 
extraordinary process, in terms of the wait period to be 
cleared, and oftentimes, the fingerprint process alone. I have 
actually spoken with the INS and gone to the INS in New York, 
where they have been terrific about listening. They have a 
great dialog with families with children from China. They are 
always open and willing to receive our suggestions.
    But there are definite, very clear devices that could be 
put in place to help expedite the process from our own end and 
set an example of knocking out big chunks of bureaucracy that 
are simply not necessary.
    Again, I think a great stride was the citizenship issue, 
which is now retroactive. When my daughter, Grace, was adopted 
in 1994, we had to apply for her citizenship and it was a 
complete fiasco. It took me three tries to get the amount of 
the check correct in sending it in. It was really a mess. Now 
it is much better, but there definitely could be improvements.
    But I would like to say something about what you are 
asking, in terms of the system, before this last question. I 
think that the adoption system in China is far and away 
superior to any other system in the world, including our own. 
It is very straightforward, it is very detailed, but it works. 
It is an extraordinary system.
    Whenever I counsel any friend or family member who might 
want to take this journey, I always say to them before they 
begin, to trust the system that you are about to walk into, 
because this is going to be your friend until you get your 
child. The system must provide proper protection for you.
    Mr. Wolf. Jennifer.
    Ms. Cox. I would like to comment on the automatic 
citizenship. While that seemed like a wonderful breakthrough, 
what has not happened is that INS has not created a mechanism 
or procedure for that to really kick in.
    So, while officially once a child arrives from another 
country he or she should be able to count on automatic 
citizenship, he or she still has to apply for a passport or 
some other procedure, and it has been over a year. So, that is 
certainly something we would like to see happen.
    And another process is the Hague Convention. While we have 
certainly been on that journey for a long time, it has been 
almost a year since the regulations have been in the drafting 
process at the State Department.
    There certainly has been wonderful opportunity for public 
input, but, we have been waiting since last spring, when we 
first felt that the draft regulations would be available to the 
public for final review. So, anything that you could do to urge 
that along would be important. Thank you.
    Mr. Foarde. Let us come back to the Hague question in the 
next round. Thank you.
    Mr. Wolf. Jennifer Goedke works for Congresswoman Marcy 
Kaptur.
    Ms. Goedke. I want to thank you all for being here, and 
also for doing this work. I am sure it is heartbreaking 
sometimes, but hopefully, more often, very rewarding.
    I have a few questions just to get some facts down. Of 
children that are placed in orphanages in China, what 
percentage are adopted domestically, what percentage would be 
international, and what percentage never make it out of the 
orphanage? I know it is probably difficult to get concrete 
numbers, but if you have a best guess.
    Dr. Johnson. Well, the numbers are sometimes hard to 
obtain, particularly for domestic adoptions, since so many of 
them are 
unofficial. In the year 2000, there were, I believe, 8,000 
official adoptions that came out of institutions.
    Those included both domestic and international adoption, 
because the law was revised to make it a little bit easier for 
domestic adopters to adopt children out of institutional care 
settings.
    The total number of official adoptions in that year was 
about 53,000. So, the majority of kids did not come out of 
institutional care settings, where probably official 
recognition of adoptions had kind of skirted the law before 
that.
    If you look at the number of unofficial domestic adoptions 
in China, it may be up to 300,000 a year. Again, the families 
face the sometimes daunting obstacles within the government to 
get those children officially recognized as their kids.
    Ms. Goedke. I think you had also mentioned, Dr. Johnson, 
about the foster program within China. Could you give us a 
little bit more detail on that? Is it mostly state-run? Is 
there more done 
unofficially?
    Dr. Johnson. Well, I cannot tell you with absolute 
authority what is going on with the foster care programs. The 
ones that I am aware of are set up by the individual 
institutions and sometimes by the adoption agencies who are 
operating there.
    Sometimes kids wind up in foster care. In foster care, 
there are a wide variety of situations where the child is in 
the institution during the week, but goes home with a caregiver 
on the weekend, or some children who are in permanent foster 
care, like we would look at here.
    So, there are a wide variety of experiences. Many times it 
is done unofficially, with a caregiver falling in love with a 
particular child and taking that child home, or it is done more 
officially as a way of expanding the number of kids that each 
institutional care setting can take care of.
    The parents who are involved in foster care tend to look at 
that as kind of permanent placement, unless that child is 
destined for international adoption. Many times--again, these 
are kind of anecdotal experiences--the kids that wind up in 
foster care are truly the kids who need to be there. They have 
been in the institution for a long period of time, they may 
have various handicapping 
disorders, etc.
    So, I see a lot on the very basic, interpersonal level of 
caregivers and kids, a lot of interest in getting them into 
other kinds of care settings besides the institution, but how 
that plays out in official policy and official programs, I 
cannot tell you.
    Ms. Cox. I can describe that. Holt has established several 
foster care programs because we believe that children do better 
in families than they do in orphanages, no matter how high the 
quality of care. It also has the impact of helping people 
understand about new child care practices. It often helps to 
elevate the nutrition of a particular family.
    What is often a resisting factor in countries is that 
orphanages do not really want to have their children go into 
foster care because they believe that will limit their 
capacity. So, it is an ongoing struggle, but once foster care 
begins, it really does help to promote a variety of good child 
welfare practices.
    Ms. Goedke. I think in Dr. Johnson's testimony he said that 
no child who has been adopted into the United States has been 
tested positive for AIDS or HIV. What percentage of the 
children that are in state institutions or others, are there 
either permanently or long term with diseases like this, or 
with other long-term disabilities that may never be adopted 
either domestically or internationally?
    Dr. Johnson. I do not think anyone has any numbers on the 
number of children who are within institutional care settings 
that are positive for HIV. There certainly will be some, but 
all kids are screened. As far as I know, none have been placed 
with families that are HIV positive.
    In terms of other disabilities, a very large percentage of 
kids in institutional care settings have disabilities. Two-
thirds of the kids who are there long term may have significant 
disabilities.
    Ms. Goedke. Thank you.
    Mr. Wolf. Susan Weld is the general counsel for the 
Commission.
    Ms. Weld. I am interested in what goes on on the unofficial 
level in different parts of China. The children who are called 
``black'' children because they have been born out of quota and 
just shopped around to somebody else in the village or in the 
neighborhood. What becomes of them? What does it mean? Is there 
any way to get them registered? Is there any effort to allow 
those who have lived in some long-term basis in a family to be 
registered with that family and make themselves proper citizens 
of China?
    Dr. Johnson. Well, according to Dr. Kay Johnson's 
publications, when she did the survey she found about two-
thirds of the families were able to gain official recognition 
for their kids.
    They did that either by getting the good will of the 
officials in their areas, or paying small fines. About a third 
of them had to pay extraordinarily high fines, up to 1 to 2 
years of income, and some were forced to pay the fine and 
accept sterilization as well. In some situations that she 
mentioned, even after doing that, the kids still did not 
receive official recognition.
    Now, the one thing that gives me some hope that this is 
going to change is, first of all, the adoption law change in 
1999, which was not as liberal as was originally desired. It 
still imposes some restraint on families adopting kids outside 
of institutional care 
settings.
    But the fact that so many kids were recognized above and 
beyond the number who had been recognized in the decade before, 
I think, shows at least some unofficial official recognition 
that this kind of thing needs to be done.
    Ms. Weld. One of the cases I dealt with back when I was 
practicing law, was a family had found a foundling in a 
province in the south, and they themselves had relatives in 
this country and wished that foundling to be adopted into this 
country.
    But there was no legal way, apparently, that one could have 
an unidentified child in China and have it adopted. Is that 
still the case under the regulations of CCAA, or whatever 
exists? Do any of you know?
    Ms. Cox. I believe they are identified adoptions, but they 
still have to go through CCAA.
    Ms. Robertson. They do not encourage you. I had a very 
interesting thing happen. That is, we were told that a 
particular child that someone had fallen in love with--had 
actually met on one of our medical missions to the United 
States--that they were to ask for the child in this way: we 
would like a 5-year-old boy. He could come from Luoyang, and he 
could have a club foot. They got the child.
    It was very formal. It is not wrong or right, it is simply 
the way that China's Government is asking us to conduct this. 
They want control of these children. They are their children 
and we must 
comply.
    It is appropriate to behave with decorum. The family did 
this, and they adopted the child. So, pre-identification is 
frowned upon, but it is acceptable.
    Ms. Weld. Thank you.
    Mr. Wolf. Actually, I would like to follow up on that 
question. Do you know if the Chinese Government has a set of 
standards to make decisions on which children will be allowed 
to be adopted?
    Ms. Robertson. Do you mean the children in the 
institutions?
    Mr. Wolf. Yes.
    Ms. Robertson. Well, there are state-run institutions and 
there are non-state-run institutions. There are children in 
different parts of China who are considered unadoptable, 
minority children who are not necessarily in the pool for 
adoption.
    Mr. Wolf. Well, I guess I mean within that pool, are 3-
year-olds more likely----
    Ms. Robertson. I think that is more about your age. I think 
it is more about a parent's age. There are not strict cutoffs, 
and both of these panelists could tell you more specifically 
about regulation within the adoption community. But, again, I 
do not think it is a really steadfast kind of approach. I think 
many families who adopt from the United States usually prefer 
babies.
    After a certain point, when a child is no longer a baby, 
but rather an infant, its chances of being adopted are greatly 
diminished. What we are doing in the case of The Grace 
Children's Foundation is concentrating on those children who 
more than likely will not be adopted.
    It is unrealistic to think that any great number of older 
children will come from China adopted. It is just simply not 
going to happen. There are vast numbers of children there. So, 
our purpose is to try to help these children find a way in 
their own communities and become valuable citizens. It is very 
unstructured in that way. There is so much not up to us--them 
or us--involved in this process.
    Mr. Wolf. I do not know if you have an answer. We are 
demanding, the Chinese are supplying. Are there rules as to how 
the 
supply works?
    Ms. Cox. There are very clear policies that vary from 
province to province. Very often, what happens is that an 
agency--and there are many, many of them--licensed to place 
children from China has a relationship with a particular 
province, institution, or 
orphanage and so they work to get child information, to learn 
about children who are free for adoption.
    Those children then go through the process at the CCAA, but 
their initial information is developed by the facilitators from 
the United States or people who are actually in China working 
on adoptions.
    Mr. Wolf. All right. Have any of you noticed over the years 
changes in the environment as there were political ups and 
downs in the United States-China bilateral relationship?
    Ms. Cox. Do you remember the 1999 bombing of the Chinese 
Embassy in Belgrade? That had huge implications with regard to 
the people in China and how fearful they were of what that 
would mean for adoptive families waiting for their kids.
    Obviously, the adoptive families had the same concerns. 
There were many, many letters that went by e-mail and fax, 
trying to ride this fine balance of not being unsupportive of 
our own government, but also being sensitive to the incident 
that had happened.
    We sometimes forget that what is written in e-mails and 
chat rooms go all around the world. It is not as if it is only 
seen by people within our borders.
    Certainly during the Olympics in Sydney when there were a 
couple of commercials that were done with regard to an adoptive 
family coming off the plane with an Asian child--it could have 
been China, Korea, Vietnam. It was an Asian child, but not 
easily identifiable--one woman said to another woman, ``You are 
going to be a wonderful mother.'' The other person responded, 
``Yes, I know. You will be, too.''
    The chatter all over the Internet was, ``oh, my goodness, 
this is terrible. People in China will think that all adoptions 
are gay adoptions and they will shut the process down.'' Well, 
predictably, there was a reaction to that, but, in fact, we 
brought it on ourselves.
    When there was the human rights story about the ``dying 
rooms,'' every time there is something that happens outside the 
context of adoption, adoption will still be affected. That will 
only increase in the future.
    Mr. Wolf. What about you, Dr. Johnson? Have you seen in 
your visits and your work, when there is a political downturn, 
any change in the way you are received, or your ability or your 
colleagues' ability to do your work?
    Dr. Johnson. No. We go to places where it is a person-to-
person type of contact, and stay out of the official realm of 
government. We have seen no change in how we relate to people 
there.
    Mr. Wolf. John.
    Mr. Foarde. Susan, I want to come back to the whole 
question of the Hague Convention, but this time sort of looking 
at the Chinese official attitude toward it.
    Before I do that, it is probably useful, for some people in 
the audience who do not know what we are talking about, and 
perhaps for the record as well, to say that we are referring to 
the Hague Convention on Cooperation With Respect to 
Intercountry Adoption.
    This is one of a great many Hague conventions that are 
supervised generally by the Hague Conference on Private 
International Law in the Netherlands. This particular 
convention is one that the United States finally became a party 
to, and we finally got legislation to implement. You mentioned 
a moment ago some of the problems, for example, the delays in 
doing the regulations for our own participation in the Hague 
Convention.
    But I would ask you now to talk about the attitude of CCAA, 
and the Chinese Government, generally, in ratifying the Hague 
Convention. I guess they have signed it, but ratifying the 
Hague, and what it would entail, if you think that it would 
improve intercountry adoption between, say, the United States 
as a party to the Hague Convention and China, if it were to be 
a party.
    Ms. Cox. Everyone is waiting to see what happens with the 
United States and what the regulations look like.
    I believe that it would absolutely be to the benefit of 
people in China to go ahead with the ratification process as 
well because they consistently ask, at an unofficial level, 
when you visit with people from CCAA, can you give us a list of 
who are the good 
adoption providers and those who are not, and there are 
hundreds of agencies licensed to do adoption in China. 
Certainly, they have the ability to say ``we are only going to 
work with these agencies who we believe provide the best 
service,'' or whatever criteria they select.
    They simply find it difficult or impossible to really close 
that door very much. The Hague Convention itself will provide 
criteria that will help limit the number of agencies that are 
able to do intercountry adoption. For that reason alone, China 
would benefit from that.
    Also, because the numbers from China are so large--they are 
consistently within the top three in terms of the number of 
placements a year--it would help to bring them into a global 
context where the process is elevated and monitored.
    I think everyone is waiting to see what Korea will do. They 
truly are the 800-pound gorilla with regard to how many numbers 
of placements there have been. Then, certainly, the United 
States. We are by far the largest receiving country. All of 
those issues will be improved if the Hague Convention could 
move forward.
    Mr. Foarde. Do you see in the Chinese officials that you 
talk to a real interest in membership in the Hague, and any 
sort of forward thought about what legal or regulatory changes 
will need to be made to be an effective partner in the Hague 
Convention?
    Ms. Cox. There are both unofficial and official 
conversations and dialog that take place. I was in The Hague in 
1999 when a representative of the Chinese Embassy, in a big 
flourish, came and signed the intent to ratify. It was greeted 
overwhelmingly as a positive step forward.
    But the most important thing that they already have in 
place is a strong central authority. In fact, it is something 
that the United States really does not have yet. So, I do not 
know that there will be that many changes. Dana talked earlier 
about how they have done a really stellar job of the adoption 
process from the beginning.
    When you consider Romania, that started out with huge 
numbers and what has happened there, when you look at Cambodia, 
how fast the numbers grew and how that is now at a standstill, 
China really did do it right from the very beginning. They 
established a system which is very closely mirroring what Korea 
has done. There is a strong system of checks and balances that 
promote private/public partnerships and transparency. So, the 
process in China really is very good and it could only be 
improved by being a party to the Hague Convention.
    Mr. Foarde. You alluded a little earlier to the importance 
of a central authority, which is sort of part of the Hague 
Convention scheme for each member country.
    Ms. Cox. Correct.
    Mr. Foarde. But I am interested, in the short time we have 
left, if you can say anything about the relationship with CCAA 
as a 
central authority.
    Ms. Robertson. John, could you just tell everyone what CCAA 
is?
    Mr. Foarde. The China Center for Adoption Affairs.
    Ms. Robertson. I know. But the people in the room here do 
not know what CCAA is.
    Mr. Foarde. Right. The China Center for Adoption Affairs.
    Ms. Robertson. Right. That oversees all adoptions.
    Right.
    Mr. Foarde. So how does CCAA get along with the provinces 
and provincial authorities? That is my real question.
    Ms. Cox. I think that there has been tension in the past 
between, is this going to be with the Ministry of Justice, is 
this going to be at the Ministry of Civil Affairs. But what I 
understand, this time it is a pretty solid system that is 
working well.
    Provinces have an opportunity to direct their own programs 
locally, but then it is all under the umbrella of the central 
authority. I believe it is a system that works quite well, as 
evidenced by the numbers of adoptions that take place each 
year.
    Unfortunately, the United States does not have a similar 
body. If there is a problem, if there is corruption, if there 
is simply a question, for example, about INS regulations, there 
is no one to go to in the United States to determine who is a 
good provider and who is not. Very often, the people that you 
call are the Better Business Bureau, because there simply is no 
one else. So, the central authority is a concept that other 
countries have that we have yet to adopt.
    Mr. Foarde. Very useful. Thanks.
    Mr. Wolf. Jennifer.
    Ms. Goedke. I just have one more question. Ms. Cox, you 
were saying that adoption should not be the first line of 
defense. A lot of times we look at this as solving a problem 
instead of addressing this as a problem itself.
    Knowing that there will never be one law or one magical 
wand that will be waved to change the situation, what do you 
think are some of the either cultural causes of the high number 
of children who are in orphanages or looking to be adopted? Is 
it cultural, is it regulation? What is the main cause?
    Ms. Cox. I think the number of children in orphanages is 
directly related to poverty and the inability of parents to 
care for their children. A similar circumstance in the United 
States would be the number of children in foster care and the 
inability of their parents, for whatever reason, to care for 
them.
    For many children, especially those in institutions, the 
other priorities really are not viable. Intercountry adoption 
is likely to be the only possibility for them to have a family.
    However, it is absolutely critical that there be a 
dedication to help reunite children with birth families, to 
promote domestic adoption in that country, and to realize, at 
least in the beginning, that those adoptions may well be in 
secret.
    In addition to all of the moral and ethical reasons to make 
this be true, it is also the fact that no adoptive parent wants 
to look at his or her child when they ask them the question, 
``why was I adopted,'' and not be able to say, ``because if it 
were not for adoption you would not have had a family.'' I 
think that is the fundamental truth that every adopted child 
wants to know in their heart.
    Ms. Goedke. Thank you.
    Mr. Wolf. Susan.
    Ms. Weld. I have a couple of more questions. One problem 
with HIV is that it kills off parents and leaves children 
without support. One of the areas where that has been happening 
is Henan Province where the disease has been spread by 
unsanitary blood selling operations. Is the Chinese Government 
trying to make provisions for those children? I have also read 
that there is a disinclination to take in such children because 
of the fear of the disease. So, that is one question.
    Dr. Johnson said that many of the children adopted into the 
United States so far check out as completely healthy--they do 
not have HIV. But is there a possibility that international 
adoption can solve the problem of children who do have HIV, or 
is it just something that nobody is prepared to address or to 
step up to the plate for?
    Dr. Johnson. That is a hard question to answer. I would say 
that, first of all, the reason we do not have any children who 
have HIV coming to this country, is that they are screened out 
beforehand. So, they are sitting around in the orphanages.
    Now, if you screen out a child during infancy who is HIV-
positive, they only have about a 30 percent chance of actually 
having the disease. So, there are a number of children who are 
marked and will remain within institutional care because they 
tested positive at first.
    I think that there is a chance for families, especially if 
good testing is available over there that documents that they 
are free of the virus, that those children can be adopted 
within the special needs programs. Whether or not they are 
going to be adopted because of fears domestically, I do not 
know.
    Now, people are committed to adopt orphans, irrespective of 
how many children you have. So that, at least, is favorable to 
the individuals who are orphaned. But whether or not they will 
actually accept them is another question.
    Ms. Weld. There is some question about the test they use 
for HIV in China. Apparently they use a test that has a high 
number of false positives.
    Dr. Johnson. Yes.
    Ms. Weld. But they go with that answer instead of repeating 
the testing to refine the answer to only get the true 
positives, so I suppose there might be a lot of children who 
are screened out of the international adoption process wrongly, 
from the point of view of a family that only wants a very 
healthy child. Do you know what I mean?
    Dr. Johnson. Yes. There certainly will be children who will 
screen positive who do not have the disease.
    Ms. Weld. My last question is on a different topic. I 
noticed in your statement that you talk about the Amity 
Foundation's work dealing with orphans. I would like to know 
more about the Amity Foundation. I know it does work in HIV 
also.
    Are they going to start doing the care, do you happen to 
know, of these HIV-positive orphans? Also, what is their 
participation in the orphanage system? They are not an NGO, 
really. They are a government-sponsored NGO. What is the Amity 
Foundation?
    Ms. Cox. I think they are an NGO.
    Mr. Youtz. I could speak to that.
    Ms. Cox. This is our FCC representative.
    Mr. Youtz. Thank you. My name is David Youtz. I am the 
president of the New York chapter of Families of Children from 
China, which is the nationwide network of families.
    You asked about Amity. Amity is an organization that we in 
the New York chapter have worked with very closely. It is an 
NGO. I think, to a pretty remarkable extent, in China it 
operates as a fairly independent nonprofit organization.
    It has a religious link in its founding. I believe it is 
sort of a nonprofit joint venture--it is rather unique--between 
the International Council of Churches and some entity within 
the social services 
network in China.
    I am not exactly sure of their governmental background. 
They are based in Nanjing. They are quite a large organization. 
They have a fairly national reach, although it is centered 
around the Yangtze River greater basin. We have now been 
working with them in FCC's various different charitable 
activities for about 6 years.
    We found them absolutely scrupulous in their use of funds 
and their remarkable activism in going out, repeatedly visiting 
orphanages each year, checking very carefully to make sure that 
all funds provided by American contributions are used in 
exactly the way they are supposed to be.
    We tend to be overwhelmed with the tiny receipts that come 
back that account for each and every expenditure of 10 yuan. 
So, we have been remarkably impressed with them.
    During this last year when a lot of the headlines have been 
coming out about the AIDS crisis in parts of Henan Province, we 
have actually spoken with the Amity Foundation and asked them 
if they could check into these exact same questions.
    We, of course, have been concerned about the children who 
are being orphaned, and the sort of family level of the crisis. 
Amity does a range of things in addition to the orphanage work 
that we work with. They do have a separate section that works 
with AIDS and other similar health issues.
    So, I think at this moment we are waiting for our contacts 
in the families and orphanage care area of Amity to come back 
and report to us and see if there are things that we could do 
to aid children.
    Ms. Weld. Thank you very much.
    Mr. Wolf. Do you have any estimates for the total number of 
children in orphanages in China?
    Ms. Robertson. There are many estimates, but they are only 
estimates.
    Mr. Wolf. But nothing that is particularly----
    Ms. Robertson. They range from 50,000 official to 4.5 
million. I believe there are 1,000 state-run orphanages, are 
there not? Does anyone know that for sure? I believe that is an 
official statistic, and there are many privately run 
orphanages.
    Mr. Wolf. What happens to a child in an orphanage when a 
child turns 18? Are there any generalizations that can be made?
    Ms. Cox. The first issue is the child surviving childhood. 
When that does happen, typical of orphanages and institutions 
around the world they age out at 18, and really are on their 
own. For the most part, they have not been educated. They do 
not have any support, they do not have any resources.
    They are going to be the same people who become victims of 
abuse, who are likely to commit crimes. We certainly can 
consider children of any country to be their greatest natural 
resource, but without investment they also can become their 
greatest liability.
    Mr. Wolf. Any other comments?
    Mr. Youtz. I would just add one point there. Our 
organization has increasingly been working to try to provide 
money for the education of kids in orphanages. We have just had 
a big push in the last half a year to provide school fees.
    As you may know, nominally, education is free for kids 
through high school. But the actual fact is, fees prevent a 
large number of kids from actually attending schools. The fees 
tend to be paid by a family.
    That burden, for children who do not have a family, falls 
on the institution. Our understanding is that many institutions 
in China run out of enough funds to provide kids school fees by 
the time they are about equivalent of fourth or fifth grade.
    The reality is that many of the kids growing up are only 
going to the local public schools up until that age, maybe the 
age of 12 or 13, which means effectively they will then just 
spend the rest of their time within the institution until they 
are 18, at which point they will go out as relatively 
uneducated members of the workforce and will be very hindered 
in their opportunities.
    We have been trying to find as many ways as we can to get 
funding to come into the institutions earmarked for the 
continuing school fees of kids through high school, and I 
believe we are even funding a small number of kids now entering 
into college.
    It is a start. I mean, I think what our organization can do 
is really a drop in the bucket. There are a very large number 
of kids here. But we have been working so far with specific 
institutions and trying to widen the number of institutions and 
the amount of funding we can get there.
    Ms. Cox. If I could add, another problem for children who 
grow up in institutions is that they have no legal identity, 
and so they do not have the resources to go out into the world 
like everyone else that is required to get a job, and so on.
    And when you are frantically trying to just take care of 
children every day, child welfare workers certainly do not have 
time to be going through the legal process to get them an 
official identity. So, that, again, is a problem that will go 
with them throughout their life, or not go with them.
    Mr. Wolf. John.
    Mr. Foarde. This question is for Dana Johnson. I am 
interested in what sort of training that caregivers get in the 
orphanages that you are familiar with, and how that training 
may have changed in the last decade or decade and a half.
    Dr. Johnson. Well, I do not think, in general, caregivers 
are given very much training other than what they come with in 
terms of child care. Expecting them to be early childhood 
educators, which would be lovely, just exceeds their level of 
knowledge 
tremendously.
    I think what many organizations have done, Nancy's and Half 
the Sky, both of them, is to train the caregivers and put 
people in there that were focused on the developmental issues 
of these children instead of medical, or just kind of 
housekeeping issues for these kids.
    The grandma programs, which have been used in orphanages 
around the world, really make a huge difference in terms of the 
early infant development, and then the preschool makes a huge 
difference for that age group, too. But trying to get 
caregivers who are really overwhelmed with the basic issues of 
life, trying to get them focused on development is very 
difficult.
    You really do have to bring additional people in to do that 
kind of thing. But that is something that is true worldwide. We 
face that in all of the programs in Romania that we are 
involved in, too.
    Mr. Foarde. Nancy, you started your organization from 
scratch and you are running it out of your front room. What 
sort of strategies have you used to build the relationships 
with the Chinese Government, particularly at the national 
level, and at the provincial and local level where you do those 
sorts of things? What has been successful and what has not 
worked?
    Ms. Robertson. I am so blessed. We are so blessed in this 
organization. Every door we have knocked on has opened. I think 
it is simply, as my colleagues have mentioned earlier and David 
just concurred, it is so personal, it is so one-on-one.
    In a country with over a billion people, we keep running 
into these relationships that are significant. Over and over 
again, by simply being ourselves and respecting the culture and 
traditions where we all operate, we get an extraordinary 
exchange of respect and gratitude from the Chinese people and 
the government.
    Specifically with the Ministry of Civil Affairs has been 
our strongest foray into these kinds of relationships. One 
other gentleman in the room has recently hosted a government 
minister at his home here in McLean, VA, this summer. It is 
very personal. They are so open to friendship.
    I personally have never been disappointed. We also have a 
relationship with the China Charity Federation, which oversees 
the well-being of the children. When we send these clothes or 
humanitarian aid on United Airlines, they are responsible for 
getting these things to the orphanages and the children. Even a 
new pair of shoes makes a difference in the life of a child.
    So, we just keep going forward day after day. This Olympic 
torch. I am thrilled to be able to bring this. The children 
will present the torch and I am hoping that Jenny Bowen is 
going to be where we are at the same time, because there will 
be children over there, actually adopted children, working in 
the orphanages to build and help to create these systems of 
caregiving for the nannies, at the same time we hope to, plan 
to, pass this.
    We are going to include children in the orphanages, and we 
are going to let the children do this and try to begin a 
tradition in China by passing this Olympic torch.
    So, again, I do not mean to be evasive in my answer to you. 
My answer is, we have been extraordinarily fortunate. Every 
place that we have gone, we have been well received. I believe 
that it is so important right now for us to pay attention to 
this opportunity that we have through adoption and through 
working in China. It works. This is one place between our two 
great nations that works.
    We have gone through our bumps, just as we have mentioned 
about the ``dying rooms'' and last year when we had the 
airplanes collide off Hainan Island, and in 1999 when the 
Chinese Embassy was bombed, and so on, and so forth. But we 
always seem to come out with our heads held high. There is no 
street fighting here. We go back to the children. We go to the 
children. They seem to be the ones that bolster all of our 
efforts.
    Mr. Foarde. That is very useful. Thanks.
    Mr. Wolf. Susan.
    Ms. Weld. Well, I am not sure I have any more questions. 
One very quick one. There was some mention of a minority child 
not being permitted--I am sorry.
    Ms. Robertson. I mentioned a minority child, yes.
    Ms. Weld. What does that mean? Does that mean, if there 
were a child in an orphanage in a minority part of China, they 
are not eligible for----
    Ms. Robertson. Well, the case is usually that there is a 
whole orphanage of minority children. It may not be just one 
child, it may be a whole section of children that are being 
taken care of privately by private donations, tourists, etc.  
These children are not 
considered Han Chinese.
    Ms. Weld. Did you mean to say that those are not available 
for adoption?
    Ms. Robertson. That is what I understand, yes. They are 
not.
    Ms. Cox. Are you asking if, as a matter of policy, are 
minority children available for adoption?
    Ms. Weld. Yes. I am just wondering why there would be such 
a rule.
    Mr. Youtz. I am not aware of there being such a rule. To my 
knowledge, kids would be available as a matter of national 
policy. But what Nancy might be referring to is that there are 
some orphanages or institutions that do not seem to have become 
a part of this national pool of kids that are being considered 
by the China Center for International Adoption.
    Mr. Wolf. I am sorry. Why do you not introduce yourself?
    Mr. Gelnik. My name is Yaniv Gelnik. I am a student at 
Brown University. I spent some time in a few of these 
orphanages over the summer. One of them was a minority 
orphanage. The way they explained it to me, is the ethnic 
children, the minority children are not allowed to be adopted.
    In many cases, the reason was because they were orphans, 
not abandoned children, so they had family, just not parents. 
Those families would get first rights when the child turns 15, 
so they do not want to let any children out for adoption for 
that reason. But in many cases it is simply because they are 
not Han, and so they are outside the system.
    I visited an orphanage only for ethnic children, because 
the government would not set up an orphanage for them.
    I think an organization called The Mothers International 
Foundation here in Washington, DC, has worked with local, 
private citizens in Hunan to set up this amazing place for the 
ethnic children. So, they are really outside the system because 
they are not Han.
    I can also speak to some of the other questions you asked 
earlier, specifically, the one about the religious 
institutions. I did spend some time in a religious orphanage 
and learned how that works.
    The one that I was in, I think, was evangelical. They raise 
all of their funding here in the United States. They send out 
newsletters and they try to get a lot of different members of 
different churches around the United States to support them.
    They have an all right relationship with the local 
officials. The officials sort of know what they are doing.
    It is really not a very stable sort of orphanage, but it is 
the best funded of those that I visited.
    Ms. Weld. Thank you.
    Mr. Wolf. Thank you very much for participating today. This 
has been very useful. I just want to comment that one of the 
responsibilities for the Commission is to make recommendations 
to the Congress and to the executive branch on human rights and 
rule of law developments.
    As you leave here, if you think of some ways and some 
specifics, such as the INS issue, the citizenship issue, if you 
think there are ways that the Commission may be able to help, 
please send us a letter and we will try to factor that in.
    Thank you all very much, including the audience, for your 
participation. We appreciate it.
    [Whereupon, at 4:02 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                                ------                                


                 Prepared Statement of Nancy Robertson

                            october 21, 2002
    Thank you, Ira Wolf and John Foarde, Senator Baucus and Congressman 
Bereuter and thanks to the Congressional-Executive Commission on China 
for including me in this timely roundtable discussion on China's 
children: adoption, orphanages and children with disabilities.
    I am honored to speak on behalf of The Grace Children's Foundation, 
an organization that has as its priority the educational, medical and 
humanitarian needs of the children in Chinese orphanages.
    Although some of the focus of today's events revolves around the 
issues of human rights and legal reforms within the People's Republic 
of China, my input will not serve to advocate for or pontificate on 
those topics. My presence and peripheral involvement in the political 
and social changes taking place in China revolve around one specific 
clientele, one specific special interest group: abandoned children in 
Chinese orphanages and foster homes.
    The story of The Grace Children's Foundation really began on 
Christmas Eve, 1994. My husband Brooks and I arrived in Hong Kong 
earlier that day just as the sun was rising and flew on to Shanghai. We 
had begun the incredible journey to adoption and to our daughter, 
Grace.
    Christmas carols were blasting in the background when we arrived at 
the hotel and I was so excited I could barely contain myself. Brooks 
was steeling himself until the right moment, guarding me from any 
possible disappointment. We went to China without an agency, pretty 
much by the seat of our pants. We arrived at the hotel and were 
informed that we should unpack and freshen up and that our daughter 
would be there in 2 hours. I smiled to myself as we rode up to our room 
in the elevator, all the while thinking, ``This is it, we are finally 
here!''
    Then I panicked like I never have before. I told Brooks that I had 
changed my mind. He looked at me and said ``What do you mean?'' I had 
been the driving force. Although he was very eager, it was I who pushed 
everything along. I became terrified at the last minute, I imagine much 
like a woman about to give birth saying, ``O.K. that was great but I 
want to go home now.''
    I shut myself in the bath and contemplated what I had done. What if 
I had ruined my marriage? This all sounded good but what would be the 
reality? What if I didn't like her as much as I thought? What if she 
didn't like me? I dressed and the phone rang and the messenger said 
``Hello, Mrs. Robertson, your baby is in the lobby.'' I said ``Send her 
up.''
    Send her up? What was this, room service? I panicked further and 
propelled Brooks to the front door, pushing him through the crack 
saying ``I cannot do this. You go and explain that I cannot do this.'' 
And I shut the door. Then, I got hold of myself. I squared my shoulders 
and opened the door and walked out in the corridor. There I saw Brooks 
holding the most beautiful person I had ever seen. He walked toward me 
and handed her to me. I said, ``I love you Grace.'' From that moment 
until this I cannot imagine my life without her. On that Christmas Eve 
I saw in her eyes, all of the children.
                              why we exist
    Inside the People's Republic of China there are thousands of 
children living in orphanages and foster homes. The overwhelming 
majority of these children are girls. Few possess more than the most 
basic clothing and many of them struggle with treatable medical 
problems.
    Without formal schooling or the crucial anchor of family these 
orphan children face a lifetime of struggle for even the most basic 
employment. These are the children who wait. The Grace Children's 
Foundation, through its programs and relationships has been allowed 
passage through what had been traditionally a wall of privacy in the 
orphanages.
                          organization history
    In 1994 Nancy and Brooks Robertson adopted their daughter Grace in 
Shanghai. Like other adoptive parents, they were moved by the plight of 
the orphans who remain behind, most of whom have little chance of ever 
being adopted. The Robertsons and like-minded parents held discussions 
through 1996 about the creation of an 
organization with the mission to improve the conditions under which 
these children live. The parents' group formed an organization that was 
incorporated in January 1997 as The Grace Children's Foundation (TGCF).
    Since its founding, The Grace Children's Foundation has been 
singularly dedicated to bettering the lives of the ``children who 
wait.'' The Foundation acknowledges that the Chinese government and its 
people have a plan to alleviate the dire circumstances of the children. 
It is China's plan and they are the architects. The Grace Children's 
Foundation and others are some of the builders on the team.
    The Grace Children's Foundation works in co-operation with 
representatives of Chinese orphanages and other governmental and semi-
governmental organizations who welcomed the concepts and provided 
access into the orphanages. This professional credibility has allowed 
TGCF to work with the Ministry of Civil Affairs and the China Charity 
Federation (CCF) which since April 2000 has joined with TGCF to assist 
in all three areas of the Foundation's work. In 2002, TGCF received 
permanent status as a publicly supported charity.
    This type of cooperation fostered by a focus on children leads to 
better relations between the United States and China. If our two 
nations can cooperate on meeting pressing human needs, we can build on 
that and cooperate in other areas.
                      past program accomplishments
    Over the past 5 years, The Grace Children's Foundation, with the 
support of individuals, foundations corporate sponsors, medical 
facilities, educational institutions and merchant donors, has created 
pilot programs to support the orphans of China.
    The Grace Children's Foundation Health Initiative has brought 10 
orphans to the U.S. for life altering surgeries. The children and their 
caregivers were provided transportation through an ongoing partnership 
with Northwest Airlines and its Friend of China program. The first five 
children from Louyang and Beijing Children's Welfare Institutes were 
brought to the United States in April 2000 to the University of 
Virginia Medical Center where they received craniofacial surgery. In 
January 2001, TGCF and Medical City Dallas Hospital and the North Texas 
Hospital for Children made possible the treatment of five more children 
from Shanghai Children's Welfare Institute by surgeon Jeffrey Fearon, 
M.D. (who has since become the Chair of the Medical Advisory Board for 
the Foundation). All 10 of these 
surgeries resulted in permanent and dramatic improvement.
    In August 2001, TGCF began work with Orbis International to link 
the orphan children to adequate ophthalmic care in China. The 
Foundation is preparing for four more children from Tianjin, Chengdu 
and Louyang Children's Welfare Institutes to receive highly specialized 
treatment in orthopedics, ophthalmic and craniofacial care at 
Children's Hospital of New York Presbyterian, St. Luke's Roosevelt 
Hospital and NYU Hospital for Joint Disease in November 2002. All of 
the above medical staffing (the children who have come to the United 
States have benefited from the services of 15 physicians and dozens of 
adjunct medical personnel) surgery, facilities, housing, food and 
transportation were donated to TGCF.
    One of the children coming to New York this year is a little 5 year 
old girl from Tianjin. She has been waiting a lifetime to have an 
operation for severe scoliosis. TGCF is preparing for her medical care 
and foster care. We await her arrival with much enthusiasm!
    Of the 10 children who were taken care of in U.S. hospitals 7 have 
been adopted and the other 3 are now in foster or specialized care in 
China.
    One of the children who came to the United States for surgery now 
lives in Richmond with her adopted family, recently visited New York. 
She is now 5 years old and lives with her mother, father and sisters 
and brother. She helped to unveil the aircraft at the launch of 
Northwest's Friend of China program when we left from Shanghai on our 
first medical mission to UVA in Charlottesville. When I carried her up 
the stairs to the aircraft, I whispered in her ear that she would never 
be lonely again. I know that her life is good and she has brought so 
much joy and happiness to everyone who knows her.
    TGCF is currently collaborating with American based Chindex 
International, Inc. and its newly formed foundation American Education 
and Health Foundation (AEHF) in Beijing. The combined efforts has 
yielded a rotating medical service to serve the orphan children 
directly in China at United Beijing Family Hospital which is owned by 
Chindex. American medical personnel from across the United States who 
have been touched by the plight of the orphan children, have pledged 
their support to travel to China on a rotating basis with services in 
orthopedics, internal medicine, craniofacial, cardiac care etc. With 
core medical staff residing in China, the children's care is ongoing 
rather than episodic.
    AEHF believes, as we do, that ``. . . improving the health of 
people in other countries makes humanitarian, strategic and moral 
sense.''
    We are also grateful to Jennifer Weippert who has joined TGCF with 
her The Red Thread Project. The proceeds from Red Thread's beautiful 
gift baskets directly benefit the children coming to the United States 
for surgery.
    The Grace Children's Foundation's Education Initiative is supported 
by the Department of Education at Brown University. Dr. Cynthia Garcia 
Coll, Chair, Department of Education and Jin Li, Assistant Professor, 
Department of Education, Brown University are acting as advisors on the 
design and implementation of a curriculum K-8 with an emphasis on 
special needs education. Sally Deitz, Ph.D., (in special education) co-
author of Learning Activities for Infants and Toddlers: An Easy Guide 
for Everyday Use and Chair of the Education Advisory Board for TGCF, is 
heading the Education Initiative. Dr. Deitz is an experienced trainer 
for Children's Resources International (CRI) whose curriculum 0-8 has 
been widely used for the newly and independent states of the former 
Soviet Union. This curriculum includes a component on inclusion of 
children with disabilities and is being considered for adaptation by 
TGCF. Dr. Elizabeth Irwin, Ed.D. of Queens College will assist Dr. 
Deitz in planning, adapting and training.
    During the summer of 2002, Brown University student Yaniv Gelnik 
obtained the Andrea Rosenthal and Mimi Sherman Grants. Mr. Gelnik 
traveled to China for a month's educational assessment of orphanages in 
Langfeng, Tianjin, Chengdu and Lijiang, where he studied the approach 
to teaching and learning in the orphanages.
    Education is the key to liberating the children to a place where 
they can flourish. We are working to help provide this essential tool 
that will give the children a chance to elevate themselves beyond 
survival. We believe it's their chance for a life with dignity.
    In an ongoing effort through its Humanitarian Aid Initiative, The 
Grace Children's Foundation with its sponsorship from United Cargo has 
sent hundreds of thousands of dollars worth of donated clothing, shoes, 
bedding, wool and fleece accessories and other necessities to the 
orphan children in China. In October of 2002 TGCF began shipping 
$400,000 worth of in kind donations. Kathy Korge Albergate, Senior Vice 
President, Interstar Marketing and Public Relations, heads the 
Humanitarian Advisory Board.
    The Grace Children's Foundation has won a Telly Award for an 8-
minute film ``Children Who Wait.''
    I was honored to carry the Olympic Torch sponsored by Chevrolet and 
Coca-Cola on December 23, 2001 representing the Foundation's work.
    Coca-Cola has generously arranged for an Olympic Torch to be passed 
at the end of this year from The Grace Children's Foundation to the 
Minister of Civil Affairs, Douji Cairang,in Beijing in a ceremony to 
thank the Ministry for the outstanding work they have done on behalf of 
the adopted children from the United States and the children who wait.
                               the future
    The Grace Children's Foundation is well situated to help China's 
orphans immediately and into the future in a way that bridges the 
complex divide that often separates China and the West. Through its 
constructive work with the orphan children and the concerned Chinese 
agencies, the Foundation can add substantially to the well-being of the 
orphan population while serving to forge new understandings and 
cooperation in a shared humanitarian endeavor. Individuals and 
corporations who support the efforts of the Foundation stand to gain 
unique rewards in China-the satisfaction of helping children in need, 
and the appreciation of a grateful nation.
    The positive though unintended diplomacy these children have 
generated is remarkable. In what other venue between our two countries 
do we continuously work with a feeling of hope and accomplishment? No 
one who has had the privilege of meeting or working on behalf of these 
orphan children has remained untouched by their spirit and poise.
    The children have unwittingly become Ambassadors, bridges actually, 
between our two great nations. The hope they represent, the cooperation 
between representatives of our two countries that they have engendered, 
the mutually acknowledged respect for life they embody . . . they 
continue to serve as catalysts for understanding, compassion and 
respect between our countries. I have been truly honored to stand with 
these children, see their love, beauty and inextinguishable courage . . 
. to work hand in hand with those responsible for their care and well 
being . . . to realize that true diplomacy and hope can be born out of 
such meager beginnings. When I am overworked, perplexed, frustrated at 
the pace of our undertakings, I recall the words of a friend who said 
to me when you are feeling overwhelmed, ``Go to the children.'' I do 
and in their eyes I see the hope for our two countries, indeed for 
humanity itself. These children, the 35 million orphans worldwide, all 
of our children . . . they are the future.
    Again, thanks to the Commission for inviting me here to share some 
thoughts on China's children and the wonderful spirit of cooperation 
between our counties that they represent.
    Please visit our website at www.gracechildren.org where you will 
see photos and information associated with TGCF.
                            acknowledgements
    I would like to acknowledge my husband, Brooks Robertson, my 
mother, Joanne Lepp, my sisters, Kathleen J. Lee and Robin Small and my 
brother, Bradford Chapman Lepp and thank them for their loving support. 
My father, Joseph R. Lepp, ret. U.S.M.C., who passed away the year 
before we traveled to China whose message to me was ``Do the best you 
can, Nan, for the true test of a man or woman's character is not in 
their final achievement in life, not whether they succeed or fail, but 
rather the means they employ to achieve their goals . . . honesty, 
kindness, love and consideration for those who have less than you and 
understanding of those who have more, so do the best you can, we will 
always be near to help.'' I would also like to acknowledge my beloved 
grandmother, Adelaide Dioguardi and my uncle and aunt, Jack and Mary 
Regan.
    Thank you to all of the individuals and friends including Brian and 
Renee Luwis, Jay and Julie Lindsey, Ed and Barbara Salvesen, Chi Ming 
Kan, John and Claudia Sherwood Servidio, Christine Fahey, Eric 
Mortensen, Msgr. Thomas P. Leonard, Yo-Yo Ma, Vance and Pamela Aloupis, 
Victor and Kathryn Creech, Joanne Roberts, Alan and Sherry Renne, 
Robert and Gail Kantor, Joan Frost, Scott and Margaret Roche Ballin, 
Claire Gruppo, Ben and Pat Reid, Michael and Rebecca Young Lesh, John 
Foarde, Don and Marieve Young, Nicholas J. Howson, Keith Hand, Julie 
Shuchman and Mitchell Levenberg, Xia Yi, Kathy Korge Albergate, 
Jennifer Crawley, Jennifer Fearon, and Suzi Hilles who have contributed 
their time, expertise and financial support to this endeavor. Without 
these people, none of what we have accomplished at The Grace Children's 
Foundation would have been possible. And most important of all . . . I 
am grateful to the children.
    I would like to commend the medical institutions and Jeffrey 
Fearon, M.D., for opening the doors wide to let the children come in. I 
would like to acknowledge Northwest Airlines and the NWA family, and 
John Watkins, our champion there. United Airlines and Connie Bello, 
Rich Pannulo and Anthony Serraro are also true friends of the 
Foundation. Even in this time of economic struggle, both airlines have 
found room in their aircrafts for the children and supplies for the 
benefit of the orphans.
    I would like to acknowledge organizations, such as the Philip 
Hayden Foundation, Families With Children from China, Amity 
International, Half the Sky Foundation and many more which have as 
their mission, to serve the children. In addition I commend the 
adoption agencies and social workers whose work is detailed and must be 
filled with stories of joy and compassion.
    I would like to commend the agencies responsible for the adoption 
procedures in China, the China Center for Adoption Affairs and the 
Ministry of Civil Affairs responsible for the well being of the 
children. I commend the caregivers in the orphanages and foster homes 
in China. I would like to thank Yan Ming Fu for his personal message of 
friendship and support in a dark hour in September 2001. Thank you Wu 
Yijing for always helping me to convey my thoughts when I am in China.
    And Grace Kathleen Ayres Robertson who has given me the greatest 
honor I will ever know, to be her mother.
    `` The Grace Children's Foundation is a New York based 501(c)(3) 
organization which seeks to improve the lives of China's orphans 
through directed health, education and humanitarian aid programs in 
cooperation with Chinese officials responsible for their care.''

    * The Foundation solicits funding and goods and services, both 
domestically and internationally, from corporations, foundations and 
individuals. The Grace Children's Foundation is not an adoption agency 
and does not make cash donations to China's orphanages or the Chinese 
government.
                                 ______
                                 

                Prepared Statement of Dana Johnson, M.D.

                            october 21, 2002

   Abandoned Chinese Children: International and Domestic Adoption, 
       Institutional Care and Rehabilitation of Disabled Children

                         international adoption
    For thousands of Americans, the distant and sometimes abstruse 
debate on human rights in China has taken literal human form in an 
abandoned Chinese infant placed for adoption in their family. Since the 
promulgation of the 1991 adoption law, which first permitted 
international adoption, over 28,000 Chinese children, overwhelmingly 
girls, have been placed in American families. Only Russia has placed 
more children in the United States during the same time period. The 
desire to adopt Chinese children, 80 percent of who are placed within 
U.S. families, continues to grow and waiting periods of one to 2 years 
for a referral are not 
uncommon.
    This surge in Chinese adoptions can be accounted for, in part, by 
the increasing availability of Chinese children during an era when 
principal referring countries such as Korea have limited the number of 
children available for placement. However, a variety of factors has 
fueled this growth including the historic preference of Americans for 
adopting girls, availability of children at an earlier age than many 
other countries and acceptability of single parents. For most of this 
time period, China had the requirement that adoptive parents be above 
35 years of age, a limit that included most potential adoptive parents 
in the U.S. Many families also have an intense interest in Chinese 
culture and a desire not only to adopt a child from China but also to 
make Chinese traditions an integral part of their family's life.
    Over the past decade, adoption paperwork, fees and in-country 
processing have been standardized, with few surprises awaiting families 
when they arrive in China. Another fact that stands in stark contrast 
to adoptions in other countries is that there is little evidence of 
corruption in the adoption process. While many families have viewed the 
actual adoption trip to other nations as an ordeal to be survived, 
virtually every family adopting from China with whom I have spoken 
treasured their trip and found the populace welcoming and officials 
courteous and efficient.
    Officials at the China Center for Adoption Affairs take their work 
very seriously and diligently attempt to match the characteristics of 
the adoptive family with those of a potential child. They have been 
anxious to improve the process of child placement, welcomed input from 
adoption professionals and have taken suggestions to heart. Medical 
information has improved as the program has matured. For example, 
regarding hepatitis B, a serious infection often acquired at birth, 
children once were tested at two months of age, a point in time where 
false-negative tests are probable due to the biology of that disease. 
Consequently, some children who tested negative at this early age were 
found to be positive when they reached their adoptive homes. Eager to 
improve the process, most testing has been moved to 6 months of age, a 
time when the results are quite valid.
    Since 1998 my staff and I have spent significant time in eight 
Social Welfare Institutions in China and have spoken to adoptive 
parents who have visited dozens more. Most were large facilities in 
major cities, so I cannot comment on the conditions in smaller, rural 
orphanages. There was no difficulty gaining access to these orphanages 
and the staffs were open and friendly. My overall impression is that 
directors and caregivers are extremely committed to the children in 
their care, facilities are continuing to improve and there is a clear 
desire to do as much as possible to provide an optimal outcome. While 
some institutions still had few caregivers per child, many were staffed 
at a ratio of three to five children per caregiver. One Social Welfare 
Institute, which was also a rehabilitation facility for severely 
disabled children, had a one-to-one caregiver ratio during daytime 
hours. Turnover of healthy children into adoptive families appears to 
be rapid. One of the problems we have faced trying to evaluate our 
early intervention projects is that most of the children we tested were 
placed for adoption so rapidly that we could not reevaluate them 
following program initiation.
    Most children are in good health when placed with their adoptive 
parents. Illnesses are primarily limited to respiratory infections and 
gastrointestinal problems, the most common illnesses in this infant-
toddler age group. In rare circumstances where children are very ill, 
parents accessed the better quality pediatric programs and received 
good care. In the handful of cases I am aware of where the child died 
while the family was in China, officials were very willing to place 
another child with the family.
    In one study of adopted Chinese children, unsuspected diagnoses 
were present in 18 percent of children and included hearing loss, 
disturbances in vision, orthopedic problems and congenital anomalies. 
(1) This percentage is similar to that seen in international adoptees 
from other parts of the world. I am not aware of attempts to knowingly 
portray a child who had a serious illness as being healthy and suspect 
that most of these situations arise because of limited diagnostic 
capabilities. For children in the special needs program, most 
conditions are accurately diagnosed and generally correctable once the 
child arrives in the United States.
    The medical conditions afflicting Chinese adoptees are those seen 
in international adoptees worldwide. (2-5) Latent or active 
tuberculosis infection (3.5-10 percent), hepatitis B (3.5-6 percent) 
and intestinal (7.1-9 percent) and cutaneous parasites are the most 
common infectious diseases. Hepatitis C and syphilis are quite uncommon 
(< 1 percent) and HIV infection has yet to be reported in an American 
Chinese adoptee. As in most countries, the most common medical problems 
are deficiencies in micronutrients (3) such as iron (14-35 percent), 
iodine (10 percent), and calcium/phosphorous/vitamin D (14 percent). 
Chinese adoptees also share with many international adoptees a 
significant risk of being under-immunized against common childhood 
infectious diseases, (6-8) as well as a propensity for chronic cough 
and respiratory infections due to exposure to significant air 
pollution. The one problem that does occur more commonly in Chinese 
adoptees is a higher risk (up to 14 percent) of having elevated blood 
lead levels (=10 micrograms/deciliter). (9)
    Preadoption risk factors that influence long-term prognosis such as 
prenatal malnutrition, prematurity and fetal alcohol exposure probably 
play a smaller role in overall outcome in Chinese adoptees than in 
children from other countries. Prenatal care and nutrition are 
generally as good and the use of alcohol by pregnant women in China is 
felt to be very uncommon.
    The overall well being of Chinese adoptees appears to be strongly 
influenced by the length of institutionalization. Orphanages are well 
known to be the worst possible environment for normal child 
development. Linear growth failure is common, with children losing 1 
month of growth for every 3 month in institutional care--a phenomenon 
termed psychosocial growth failure. Delays in one or more domains (e.g. 
gross and fine motor, social-emotional, language and activities of 
daily living) were present in 75 percent of children at the time of 
arrival.
    Each year I review 2,000 adoption referrals and see 300 children 
for post-arrival examinations from around the world. From this 
perspective, I strongly feel that 
officials in China attempt to place children who are as healthy as 
possible. The adoption process is well organized, and long-term issues 
related to early childhood institutionalization are less common than 
other countries due to a younger average age at placement (12 months). 
Fees derived from international adoption have clearly helped improve 
conditions for children who remain within Social Welfare Institutions, 
and there is increasing use of foster care. Finally, parents are 
overwhelmingly satisfied with their experience. This impression is 
strong enough for me to have 
recommended adoption from China to family members and close friends.
                           domestic adoption
    The glowing reports on international adoption must be muted in the 
case of domestic adoption in China. In researching this area, I have 
relied heavily on the work of Kay Johnson, Ph.D., Professor of Asian 
Studies and Politics at Hampshire College in Amherst Massachusetts and 
adoptive parent of a Chinese child. (10-14) Abandoned disabled children 
of both sexes have been the traditional inhabitants of orphanages in 
China, as they have been in every country in the world where 
sophisticated medical care is unavailable. The situation was similar in 
the United States 40-50 years ago. However, in times of adversity, the 
Chinese preference for male children shifts the gender balance of 
abandonment clearly toward infant girls. Most contemporary Chinese view 
the ideal family as a boy and a girl. However, traditions of property 
transfer and the continuation of the filial line necessitate a male 
heir. In rural China where the majority of abandoned Chinese girls 
originate, old age pensions are unavailable. The practice of a daughter 
leaving her birth family to tend to her husband's parents therefore 
makes a male child the only means of ``social security'' for elderly 
parents. These traditions essentially ensure that the rate of 
abandonment for healthy girls will dramatically increase during times 
of misfortune, as was observed during the famine years following the 
Great Leap Forward or during rigorous enforcement of population control 
measures. The number of children abandoned each year in China is 
unknown, but estimates range between 100,000 and 160,000.
    Until the early 1990s when international adoption began directly 
infusing financial support, Social Welfare Institutions in China were 
chronically underfunded. Worldwide, there is no more politically 
voiceless or more vulnerable group than parentless children. The influx 
of abandoned girls forced orphanage directors to balance the marginal 
existence of the majority of children in their care with the costly 
medical needs of a small number of critically ill infants. Under these 
circumstances, they were forced to practice triage, as do orphanages 
around the world. Mortality at some facilities reached 50 percent, a 
figure similar to that reported in the early decades of this century in 
orphanages in the United States and Western Europe. That said, there is 
almost certainly a gender bias in how children are selected for 
treatment. In one particular orphanage in Wuhan, Dr. Johnson relates 
three instances where the desire for a boy was so strong that potential 
adoptive families assumed the financial burden of caring for a 
seriously ill, abandoned male infant despite the fact that the children 
were close to death.
    Unfortunately, the placement of abandoned girls in adoptive 
families in China remains subservient to the goals of population 
control. In fact, the 1991 law which gave permission to adopt to 
childless couples above 35 years of age was designed to limit hiding an 
over-quota girl within a friend's or relative's family. Despite the 
limitations imposed by the law, Dr. Johnson's work has identified a 
very strong desire of Chinese couples and singles to adopt healthy 
girls to complete their ideal family. Such adoptions are generally not 
through official channels and may total from 300,00-500,000 per year. 
These adoptions are more common in rural areas and involve girls more 
than boys. Transfer of children into the adoptive family is complete 
and the arrangements usually do not involve relatives or close friends. 
Her work dispels common misconceptions that Chinese families do not 
adopt children from outside of family lines and do not adopt girls. 
More importantly, her research identifies a group of domestic adoptive 
parents willing to assume the care of normal, abandoned children, 
permitting Social Welfare Institutions to concentrate their 
efforts on those who are disabled. However, domestic adoption has not 
been promoted or supported to the same extent as international 
adoption, presumably 
because those abandoned have been viewed as being over-quota births 
first and 
children second.
    The major problem encountered by Chinese families adopting outside 
the framework is official recognition of their child, which ensures 
access to such entitlements as education and healthcare. Within the 
group of Chinese adoptive families described by Dr. Johnson, two-thirds 
were able to legally register their adopted child by appealing to the 
good will of officials or paying a modest fine. However, a number were 
burdened with huge fines or suffered forced sterilization. Under some 
circumstances, even after enduring these sanctions, children were not 
officially registered. As noted by Dr. Johnson, the plight of these 
unregistered ``black children'' is ironic since China has insisted on 
guaranteeing that Chinese children adopted abroad have full citizenship 
and fully equal treatment in their adoptive families.
                          primary disabilities
    A disproportionate percentage of children who reside within Social 
Welfare Institutions are those abandoned because of primary medical 
disabilities. While many of these children have conditions that are 
easily treated within a sophisticated medical system, they pose 
enormous problems for families who have neither access nor financial 
resources to pay for this care. Therefore, even though the one-child 
policy exempts children with disabilities, Chinese families with 
handicapped children face powerful forces that encourage abandonment.
    I have participated in a number of training courses in China and 
observed significant progress in pediatric rehabilitation over the past 
6 years. Until recently, the disabled in China suffered the same 
segregation from the able population as individuals with disabilities 
in Western society. With the exception of the blind, for which the 
profession of masseuse was traditionally reserved, the focus was on the 
family attending to the needs of the disabled rather than promoting 
self-sufficiency. However, the past two decades have witnessed the 
establishment of centers of excellence in rehabilitation medicine as 
well as architectural adaptations that permit disabled individuals to 
participate more fully in society.
    A driving force behind this change is Deng Pufang the eldest son of 
the former Chinese leader Deng Xiaoping. During the Cultural 
Revolution, he was persecuted so vigorously that he sustained a severe 
cervical spine injury and since then has been wheelchair bound. Due in 
large part to the prominence of his family and his position as the 
President of the Chinese Federation for the Disabled, it is common to 
see ramps, handicapped restroom facilities, and redesigned streets and 
sidewalks that have eliminated curbing at crosswalks.
    Coded tiles incorporated into sidewalks and audible signals at 
intersections help the blind navigate more independently and safely. 
These accommodations are not limited to the major cities. In 1999, I 
participated in a rehabilitation course in a remote location in Inner 
Mongolia where new street and sidewalk construction 
incorporated these changes.
    Access to and expertise in Western rehabilitation medicine is 
generally localized to large cities with sophisticated medical 
infrastructures. However, some treatments for chronic disabilities, 
including acupuncture, massage and natural compounds from the 
pharmacopoeia of traditional Chinese medicine, are generally available 
throughout China. Training programs are needed to develop the required 
expertise that will permit application of both new and traditional 
treatments to the benefit of disabled children.
    Many communities have developed rehabilitation programs associated 
with Social Welfare Institutions. One facility that I visited, the 
Nanjing Social Welfare Institute, was specifically designed for the 
rehabilitation of severely handicapped orphans. However, many children 
from the community participate in the excellent therapy and vocational 
training programs available through the center. Another 
impressive program, the Children's Rehabilitation Center in Qingdao, 
was designed primarily for children with hearing, vision and cognitive 
impairment living in the community. Universal access of families to 
such services is a critical step in reducing the number of abandoned 
disabled children.
                         secondary disabilities
    Secondary disabilities may prove even more daunting for 
institutionalized children. Less obvious than a cleft lip or clubfoot, 
these problems are brought about by lack of a nurturing environment 
during the early formative years of life. Secondary disabilities affect 
both normal and disabled children within orphanages, and may include 
irreversible deterioration in growth, cognitive, language and social 
skills, and emotion regulation. (15) In the case of children who remain 
within Social Welfare Institutions, particularly those with 
disabilities, the key needs involve a comprehensive package of medical, 
cognitive and social rehabilitation designed to teach skills that will 
permit their integration into Chinese society as independent adults.
    I am pleased to serve on the board of an organization that is 
attempting to directly prevent the development of secondary 
disabilities within Social Welfare Institutions. Half the Sky 
Foundation (named for the Chinese adage ``Women hold up half the sky'') 
was created in 1998 by adoptive families who desired to maintain a tie 
to China, the country that was their daughters' first home. (16) The 
organization is committed to helping the children who remain in China's 
orphanages do more than merely survive. The mission is to enrich the 
lives and enhance the prospects for these forgotten children by 
providing infant nurture and early childhood education centers inside 
orphanage walls.
    To fulfill this mission, Half the Sky, in cooperation with the 
China Population Welfare Foundation and the China Social Work 
Association, both Beijing NGOs, creates and operates two programs: Baby 
Sisters Infant Nurture Centers and Little Sisters Preschools. The Baby 
Sisters Infant Nurture Centers employ HTS-trained ``Nannies'' from the 
local community to cuddle, love and provide orphaned babies the 
physical and emotional stimulation essential to the normal development 
of the brain and psychological well-being.
    In the Little Sisters Preschools, HTS-trained teachers use a unique 
and progressive curriculum that blends principles of the Reggio Emilia 
approach to early childhood education with contemporary Chinese 
teaching methods. The program is 
designed not only to prepare the children to succeed in Chinese 
schools, but also to help develop the ``whole child''--to help her 
attain the positive sense of self so often missing in institutionalized 
children.
    By the end of 2002, HTS will be offering services to over 1200 
children in eight institutions: Hefei and Chuzhou in Anhui Province; 
Changzhou in Jiangsu Province; Chengdu in Sichuan Province; Chongqing 
Municipality, Shanghai Municipality: and two institutions in Guangdong 
Province. On Children's Day, June 1, 2002, HTS, CPWF, and CSWA in 
cooperation with the Ministry of Civil Affairs opened a 
national model center and training facility at the Shanghai Children's 
Home, facilitating outreach to institutions across China.
    Half the Sky's long-term plan calls for establishing and 
maintaining programs in at least two children's welfare institutions in 
each Chinese province where there are substantial numbers of children 
living in institutions. Each center will serve as a provincial model 
and will offer regional training workshops and a base for the 
network of caregivers to exchange ideas and experience. The rapid 
expansion of HTS programs would not have happened without exceptional 
support and cooperation from the directors of each facility and local 
and provincial officials. I view this teamwork as further proof of a 
sincere desire to improve conditions for abandoned 
children as rapidly as possible.
                               conclusion
    On March 7, 1996, I participated in a congressional briefing 
sponsored by Senator Paul Simon that was organized in response to the 
Human Rights Watch report on alleged abuse and neglect in the Shanghai 
Children's Welfare Institution. The meeting began with a statement by 
Dr. Ewing Carroll, Executive Secretary of the Asia/Pacific Region of 
the General Board of Global Ministries of the United Methodist Church. 
Acknowledging the size and complexity of Chinese society, he stated 
that everything we would hear during the briefing would be true 
``somewhere'' in China. In this spirit, I acknowledge that the 
situation may well be different ``somewhere'' in China, but my personal 
experience has been thoroughly positive. From my perspective, few 
countries have made as much headway over such a short period of time in 
improving conditions for institutionalized children and providing an 
ever-increasing array of interventions for those who are disabled. 
International adoption benefits not only those who are placed but also 
those who remain by improving conditions within orphanages. The 
adoption process itself goes as smoothly as it does anywhere in the 
world and outcomes, from the perspective of adoptive parents and 
adoption professionals, are overwhelmingly positive.
    Despite great progress on many fronts, problems within this realm 
of children's issues do exist. Population control policy has been 
undeniably linked with increased abandonment of healthy infant girls 
since the late 1980s and a marked expansion of the population within 
Social Welfare Institutions. While some of these abandoned children 
succumb, probably many more are adopted by Chinese families in 
violation of adoption laws designed principally to prevent over-quota 
births rather than to ensure the well being of children. Consequently, 
hundreds of thousands of children, principally girls, exist in 
situations where they are deprived of entitlements such as education 
and health care due to their parent's inability to gain official 
governmental recognition of their adoption. As noted by Dr. Johnson, 
adoption laws should be further modified so that they serve first the 
needs of children, and domestic adoption should be promoted and 
supported as vigorously as international placement.
    In 1999, the adoption law in China was changed, lowering the legal 
age of adoption to 30 and permitting adoption of orphans from within 
state welfare institutions by families who already had children as long 
they could obtain certification of compliance with birth planning 
regulations from local authorities. During the year 
following liberalization of the law, the number of officially 
registered adoptions in China increased from approximately 6,000-8,000/
year to 52,000. While the number of children adopted from orphanages 
increased, a larger portion of this number probably represented 
registration of foundlings adopted outside of orphanages as well as 
official recognition of ``black children'' adopted outside of legal 
channels. In these events I see progress and gain hope that domestic 
adoption will be supported, and that those homeless children welcomed 
into Chinese families outside the letter of the law will enjoy the full 
rights and privileges guaranteed in China's own 
constitution.
                              bibliography
    1. Miller LC, Hendrie NW. Health of children adopted from China. 
Pediatrics 105:E1, 2000.
    2. Johnson DE, Traister M, Iverson S, Dole K, Hostetter MK, Miller 
LC. Health status of US adopted Chinese orphans. Pediatr Res 39:135A, 
1996.
    3. Johnson DE, Traister M. Micronutrient deficiencies, growth 
failure and developmental delays are more prevalent than infectious 
diseases in U.S. adopted Chinese orphans. Pediatr Res 45:126A, 1999.
    4. Hostetter MK. Infectious diseases in internationally adopted 
children: findings in children from China, Russia and Eastern Europe. 
Advances in Pediatric Infectious Diseases 14:147-61, 1999.
    5. Saiman L, Aronson J, Zhou J, Gomez-Duarte C, San Gabriel P, 
Alonso M, Maloney S, Schulte J. Prevalence of infectious diseases among 
internationally adopted children. Pediatrics 108:608-612, 2001.
    6. Hostetter MK, Johnson DE. Immunization status of adoptees from 
China, Russia, and Eastern Europe. Pediatric Res 43:147A, 1998.
    7. Schulte JM, Maloney S, Aronson J, San Gabriel P, Zhou J, Saiman 
L. Evaluating acceptability and completeness of overseas immunization 
records of internationally adopted children. Pediatrics 109:E22, 2002.
    8. Schulpen TW, van Venter AH, Rumke HC, van Loon AM. Immunization 
status of children adopted from China. Lancet Dec 22-29:358(9299):2131-
2132, 2001.
    9. Elevated blood lead levels among internationally adopted 
children--United States 1999. MMW 49:49:97-100, 2000.
    10. Johnson, K. 1993 Chinese orphanages: saving China's abandoned 
girls. Australian Journal of Chinese Affairs 30:61-87, 1993.
    11. Johnson K. The politics of the revival of infant abandonment in 
China. Population and Development Review 22:77-98, 1996.
    12. Johnson K, Banghan H, Liyao W. Infant abandonment and adoption 
in China. Population and Development Review 24:469-510, 1998.
    13. Johnson K. Politics of international and domestic adoption in 
China. Law and Society Review in press.
    14. Johnson K. Chaobao: The plight of Chinese adoptive parents in 
the era of the one child policy. Submitted for publication.
    15. Rojewski JW, Shapiro MS, Shapiro M. Parental assessment of 
behavior in Chinese adoptees during early childhood. Child Psychiatry 
and Human Development 31:79-96, 2000.
    16. Half the Sky Foundation http://www.halfthesky.org
                                 ______
                                 

               Prepared Statement of Susan Soon-Keum Cox

                        monday, october 21, 2002
    My name is Susan Soon-keum Cox. I am Vice President of Public 
Policy and External Affairs for Holt International Children's Services 
in Eugene, OR. Holt is an international adoption and child welfare 
agency that pioneered adoption from Korea in 1956. Holt has placed 
children for adoption from more than 20 countries and has had adoption 
and child welfare programs in China since 1993.
    I have worked in adoption since 1976 and visited child welfare 
programs in several countries in Asia, Latin America and Eastern 
Europe. Since 1983 I have worked with hundreds of international 
adoptees as director of Heritage Camps and Motherland and Family Tours 
to Korea and, in 1993 and 1999, I participated at the Hague Convention 
on Private International Law in Respect to Intercountry Adoption. My 
involvement at The Hague was primarily as an adoption advocate and 
professional, however I also bring the perspective of my life 
experience as a Korean adoptee.
    In the last 25 years I have witnessed enormous changes and 
transitions to the institution of intercountry adoption. I am pleased 
for the opportunity to be here today and express my observations of the 
impact of child welfare and international adoption on China.
    Approximately 20,000 children are adopted from abroad each year by 
U.S. families. Since the early 1990s adoptions from China represent an 
increasing percentage of the children adopted internationally. In 2002, 
more than 4,000 children were adopted from China. These children also 
demonstrate a changing demographic profile of adoptive families, of 
attitudes about intercountry adoption, and adoption practice and 
culture. Most significantly, these adoptions represent a unique profile 
of international adoptees and the impact they will have upon the 
institution of 
intercountry adoption, and the broader cultural context of their birth 
and adopted countries.
    As China emerges into the global consciousness, there are lessons 
to be learned from the Korean experience. Both countries share an 
impressive record of achievement in positioning themselves in the world 
market place, and a shadowy history and reputation regarding to a 
variety of human rights issues. China and Korea also share a common 
history of international adoption as a governmentally sanctioned 
practice that is viable, effective and humane as a means for a child to 
have a family. It is a social practice that is also highly visible and 
sometimes controversial on both sides of the ocean.
    Nearly 30,000 Chinese children (primarily girls) have been adopted 
abroad. Compared to the overall population of China, that might seem an 
inconsequential demographic. However, it would be misguided and the 
loss of an important opportunity to minimize the impact of that 
population on the social and cultural future of China, as well as the 
social and cultural context of the families in the United States who 
adopt them.
    Adoptions from China began at the same time that the virtual 
community was becoming a part of the daily life of many Americans. This 
directly and dramatically impact the adoption process. It influenced 
the connection of adoptive families to the agency facilitating the 
adoption, the children they were adopting, and most of all, the 
connection of adoptive parents to each other. While families adopting 
from China certainly did not invent international adoption, they did to 
a large degree pioneer virtual communities for themselves. They 
replaced the earlier practice of parent support groups in one another's 
living rooms with more accessible opportunities for support and 
education not limited by boundaries of geography or time zones.
    China contributed to the 'new profile' of adoptive families by 
establishing policies that permitted older and single parent adoptions. 
While most countries limited the age of parents adopting infants to 40 
or 45, the early adoptions from China required a minimum age of 40 with 
no upper age limit. Single parents were not restricted and were able to 
adopt young infants. Immediately adoptions from China became the most 
appealing opportunity for hopeful adoptive parents, particularly those 
over age forty and single women. China also established a firm 
requirement that families travel to China to bring home their adopted 
children. From the beginning this was considered by adoptive parents to 
be a positive and treasured opportunity rather than a barrier or 
challenge to be overcome.
    Predictably, going to China to bring their children home has had a 
compelling and lasting impact upon adoptive families. Touched not only 
by the children they adopt, but also for the thousands of children left 
behind, adopted families stay connected to one another, not only for 
themselves, but also for the children they are parenting and the 
children they remember in China.
    Adoption from Korea began in 1956 and more than 100,000 children 
from Korea have been adopted by families in the United States. However, 
it was not until the late 1970s that the issues of race, culture and 
identity of these adoptees were considered a priority by the adoption 
community. This was the beginning of heritage and culture camps and 
motherland trips back to Korea. It took longer for the Korean American 
community to become involved. Mostly uncomfortable with both the public 
and private implication of intercountry adoption, Korean Americans 
avoided participating. In the 1980s that began to change as Korean 
adoptees grew up and immersed themselves in their birth culture 
including becoming part of Asian groups in schools across the country. 
Korean American students began to reach out to and include Korean 
adoptees in their activities and it paved the way for the more 
established adult Korean American community to come forward as well.
    In contrast, from the beginning, adoptions from China included 
outreach to local Chinese American communities throughout the country. 
Adoptive parents sought out cultural resources, established 
relationships and formalized programs and opportunities for their 
children. Many of these programs included the children of the Chinese 
American families and together with Chinese adoptees they learned to 
embrace the culture and heritage of their birth countries.
    In the 1980s there was a GAO report on international adoption. In 
addition to highlighting varying aspects of the adoption process, the 
report illuminated the passionate response of adoptive families 
regarding their adoption experience and their deep commitment to 
ensuring that international adoption continued as a viable option. When 
the Hague Convention was first introduced at the end of the 1980s, 
those outside of the adoption community were startled at the degree of 
interest and emotional response of adoptive families. Throughout the 
next decade adoptive families have not faltered in their monitoring and 
questioning of the Hague process.
    From the beginning, China instituted an international adoption 
process that is similar to the successful process that has endured in 
Korea for more than 40 years. By establishing a centralized procedure 
for adoption with oversight by the China Center for Adoption Affairs 
(CCAA), there is a system of checks and balances that ensures a 
consistent measure of accountability and equity. This has not been the 
foundation of international adoption in many other countries with newly 
developed adoption programs, and is largely responsible for the success 
of adoptions from China. This careful, thoughtful system has allowed 
impressive numbers of children to be adopted with few disruptions.
    On numerous occasions, government officials and staff from the CCAA 
have come to the United States to visited adoption agencies, medical 
programs, state adoption and foster care programs, and local child 
welfare officials. They have also visited adoptive families around the 
country and observed the parent group supported programs, celebrations 
and projects for Chinese adoptees. It is clear that CCAA officials and 
others in China have been reassured by how well the adopted children 
are thriving in there adopted families and communities.
    When adoptions first began from China, there were firm, rigid 
restrictions on access by outsiders to orphanages and institutions. 
There is still reluctance to allow outsiders unlimited access to many 
institutions, but increasingly China has welcomed child welfare and 
medical experts, as well as humanitarian and development specialists to 
assist in improving social welfare conditions in China.
    China has understandably been cautious and at times reticent 
regarding their international adoption program. Like other sending 
countries, including the United States, China is sensitive to how this 
social practice on behalf of their homeless children is seen by the 
rest of the world. Media interest in Chinese adoptions has been 
consistent and varied. While many of the stories are positive 
commentaries about a particular adoptive family, other stories have 
critically exposed the complexities of the one child policy, child 
abandonment, and inadequate care in orphanages.
    No country willingly accepts criticism of how they care for their 
children, nor do they easily allow children to leave the country of 
their birth to be adopted by families of another. Intercountry adoption 
should never be considered the first line of defense, or the answer to 
the social safety net provided by solid child welfare 
programs. However, it is an immediate and often the single solution to 
abandoned children in orphanages with no other option in their future. 
China has shown an understanding and acceptance of this reality.
    When China established and allowed intercountry adoption for 
thousands of children in the past decade, it has also used the 
resources created by adoption to 
elevate the lives of children remaining in China. This is uneasy and 
uncomfortable for China, or any sending country to acknowledge. 
However, the evidence of the quality of care in institutions in China 
clearly demonstrates that resources have been re-invested to improve 
care for children in China. Foster care, early childhood development 
and education, programs for children with disabilities, child care 
training, medical services and numerous other programs to benefit 
children are increasing in China's child welfare system.
    Worldwide, children in orphanages are not given high priority and 
considered of little value to their society. Resources for there care 
are inadequate and advocacy on their behalf rare. Often they simply do 
not survive desperate childhoods. The children who do survive are 
seldom educated or prepared to care for themselves or a family.
    As China continues to seek prominence in a global context, they 
cannot avoid increasing scrutiny. Circumstances that seem far removed 
from adoption or child welfare will still have implications on 
adoption. As China positions itself in the world market place and 
prepares to host the Olympics, it is predictable that the media and 
others will continue to focus on social issues, including adoption and 
the role it has in China. This will likely make China uneasy. But China 
should remember that they are not alone in explaining or defending the 
practice of international adoption. The thousands of families who have 
adopted children from China are outspoken and passionate advocates. It 
does not mean that they look aside at all that still remains to be done 
to improve social welfare programs in China, but they see it through 
the lens of compassion and determination to help them succeed.
    Like Korea, the cultural and social context of China will be 
affected by the impact of international adoption. Because white 
families adopting Asian children are clearly obvious and visible, they 
cannot be hidden. Policy makers in China or the United States also 
cannot ignore them. An example of the ability and determination of 
adoptive families to mobilize was evidenced when the United States 
increased vaccination and immunization requirements for individuals 
immigrating to the United States. While it was sound public policy for 
adults, the requirements for infants and children was disaster. The 
unintended consequences of this legislation was immediately clear to 
the adoption community and agencies came together to urge needed 
changes. However, it was the organized and strategic call to action of 
adoptive families who had adopted, or hoped to adopt, from China that 
was pivotal in securing the required alteration in policy for children.
    In addition to the adoptive families, the collective influence of 
other individuals and organizations deeply invested in what happens in 
China is impressive. Organizations that are not considered part of the 
traditional adoption community have 
become involved, such as university researchers, the medical and 
education community, and the news media. An industry dedicated to the 
Chinese adoption experience has developed and flourishes. Resources on 
Chinese culture, history, language and contemporary China are 
considerable. Books for children at all ages of development and for 
adoptive parents are published constantly, many by adoptive families 
themselves. Culture camps, holiday festivals and local events are 
bountiful and updated directories of local and regional organizations 
and available in communities around the country.
    Chinese adoptions have become a part of the normal cultural 
mainstream in the United States. International adoptive families have 
had minor exposure in public service announcements and some commercial 
advertising in the past (Eastman Kodak produced a commercial about a 
Korean adoptee in the 1970s). However, increasingly international 
adoption, and primarily Chinese adoption, is featured in commercial 
advertising, not about adoption or Asia, but ads for J.C. Penney, 
Nordstrom, Morgan Stanley, and others. These marketing promotions 
demonstrate the clout and viability of international adoption as 
mainstream culture.
    At the heart of all this activity and attention are the adoptees 
themselves. Their life experience as Chinese adoptees will be greatly 
influenced by the collective energy and attention that has been a part 
of how adoption from China developed and emerged. By the time China 
hosts the Olympic Games, many adoptees will be old enough to have, and 
voice, their own opinions about their birth country and their adoption. 
It is not possible to predict precisely what those thoughts will be, 
but if the Korean experience is any indication, they will be a voice 
the world should be prepared to hear.

                       Submission for the Record

                                ------                                


 Prepared Statement of David Youtz, President, Families With Children 
                     From China of Greater New York

                            october 21, 2002
    Families with Children from China (FCC) is a non-profit 
organization dedicated to supporting families who are planning to 
adopt, are in the process of adopting, or have adopted children from 
China. There are 90 chapters across the United States representing 
thousands of adoptive families. The Greater New York Chapter alone 
includes nearly 2000 families. Since we were founded in the early 
1990s, we have continuously had the opportunity to work with and 
observe Chinese orphanages. We believe it is important to include in 
today's discussion the voices of the adoptive community.
    China emerged in the mid-1990s as one of the largest sources of 
international adoptions for Americans. The number of Chinese children 
adopted into American families is now about 5,000 per year. Across the 
United States close to 30,000 
children have been adopted from China by American families since 1990. 
China has been a frequent choice because its adoption process has been 
stable and predictable, infants and children coming from Chinese 
orphanages have been healthy, and Chinese officials have been open to 
adoptions by single parents and older parents.
    Beginning in 1993, China conducted a major overhaul and 
consolidation of its adoption policies and processes and set a new, 
national system in place. Our community has been impressed with the 
work of the national coordinating agency, the Chinese Center for 
Adoption Affairs. Graft and irregularities in dealings with foreign 
adoptions have been extremely rare. The relevant Chinese authorities 
have been conscientious about consistently and fairly applying the 
rules. The adoption paperwork requirements and costs have been on a par 
with, if not better than international practices. China has exhibited 
none of the problems seen recently with adoptions in Vietnam and 
Cambodia. FCC families' experiences with China adoption have been 
overwhelmingly positive.
    The circumstances of adoption in China are in some ways unique. The 
large majority of children in Chinese orphanages are girls. This 
situation has been caused, by a number of social, demographic, and 
economic factors. These include a combination of widespread poverty in 
certain rural provinces, (particularly those inland regions remote from 
the booming economies of the coastal areas), and the traditional 
Chinese value of the primacy of bearing sons. The lack of social 
security assistance in China further fuels the tradition that male 
heirs, and not daughters, are obliged to provide financial and other 
care for their elderly parents. Finally, China stepped up its 
population control efforts at the beginning of the 1980s and 
established the ``one-child policy.'' This policy, from its inception, 
has been irregularly enforced (strongly enforced in urban areas, and 
more loosely in rural areas), and is now being revised to reflect the 
reality that many families have skirted the one-child rule in attempts 
to bear a son.
    FCC families are well aware, having visited orphanage sites in 
China during the last decade, that there were numerous problems in 
Chinese orphanages in the early 1990s. These ranged from poor 
conditions, overcrowding, and lack of resources, to poor management of 
the institutions. We believe China has made great strides in addressing 
these problems. They have been very successful at bringing new 
resources to orphanages. At many of the institutions we have visited, 
the quality of care, physical infrastructure, toys and equipment, and 
other conditions have 
dramatically improved. We have also been impressed that orphanages, 
working together with foreign and domestic groups, are now embracing 
foster care as an 
alternative to long-term institutional care for infants and children. 
We have been pleased to see significant growth in the number of local 
Chinese families participating in foster care programs, and the 
beginning of growth in domestic adoption by Chinese families. This 
latter development is new for mainland China, which does not have a 
tradition of adoption outside the extended family; this is, we believe, 
the direct result of a fruitful, collaborative relationship between the 
foreign adoptive communities and China.
    While FCC is primarily an organization that serves American 
adoptive families, we care deeply about the children who remain in 
Chinese orphanages. Many of us parents felt compelled to find an 
effective way to do something to elevate conditions for these unadopted 
children. Increasingly today the children who are not being adopted are 
those with significant special needs or those who have passed beyond 
the prime ages for adoption--the same category of children who have 
been difficult to place in American domestic adoptions.
    Since 1996, FCC has been providing support to China's orphanages 
and helping to improve conditions for children growing up in 
institutional care. Over the past 6 years, for example, FCC of Greater 
New York has raised more than $850,000 to fund orphanage assistance 
projects in China. Over $800,000 has already been 
distributed to China to fund projects providing direct services to 
children in more than 40 orphanages in nine provinces. Most of the 
funds FCC distributes support continuing programs to increase the level 
of care the children receive.
    Working primarily in partnership with a China-based non-
governmental organization, the Amity Foundation, FCC sponsors orphanage 
children for medical treatment and corrective surgery and pays tuition 
fees for hundreds of children to attend community schools. Two 
important programs provide professional care within the 
orphanages, supplementing the work of the regular orphanage staff. The 
``Grandmas Project'' recruits retired teachers and medical personnel to 
provide nurturing care to babies and special needs children. In a 
program developed by FCC, intensive-care nursing teams care for babies 
and infants at risk and provide therapeutic intervention to special 
needs children. FCC currently sponsors Grandmas projects in 17 
orphanages, and teams of 4 to 6 Chinese nurses in 5 orphanages.
    The development of long-term foster care has been perhaps the most 
significant advancement in the care of the neediest children, older and 
special needs children who are not likely to be adopted. Through 
seminars by organizations such as the Amity Foundation, orphanage 
directors are recognizing the benefits of loving foster homes over 
long-term institutional care for these children. FCC has worked with 
the Amity Foundation to develop quality foster care programs, providing 
a model of family care within the community with resources to address 
medical and educational needs, and to promote the advantages of child-
centered family care to orphanage directors and provincial officials. 
The benefits to the children in foster care placements are apparent in 
the gains in their health and in their physical and emotional 
development. FCC has also partnered with the Holt Foundation, another 
organization promoting the advantages of foster care, in providing 
funds to begin two foster care projects developed by Holt.
    In site visits to the orphanages with projects we sponsor, we have 
seen significant advancements in the conditions and in the level of 
care. To those who visited 
orphanages in the first years of significant numbers of adoptions from 
China, the observed improvements have been most dramatic. Government 
and business-
community resources have been devoted to erecting new orphanage 
buildings and renovating others, replacing the dismal facilities many 
of us saw when we adopted our children. Government officials and 
orphanage directors have been receptive to efforts by a broad range of 
charitable organizations to improve services to the children, allowing 
access to the orphanages and training of orphanage staff.
    Clearly the needs remain great and much more needs to be done. The 
trends of greater government attention to the population of orphanage 
children and to facility improvements, and receptivity to the 
assistance provided by international organizations as well as emerging 
charitable groups within China are hopeful signs of 
continuing positive developments in the care for China's orphaned and 
abandoned children.
                               conclusion
    Adoption of children from China into American families is one of 
the most successful examples of cooperation between our two countries. 
Despite frequent ups and downs in the relationship between Washington 
and Beijing, the adoption process has moved ahead with quiet and life-
changing effectiveness. The adoption process and conditions in 
orphanages are one area where China has made impressive and enduring 
progress, which should be recognized and applauded. China's openness to 
assistance and its commitment to improvement in these areas 
demonstrates that China can change in directions that Americans are 
pleased to see. This suggests to our community that open lines of 
communication and constructive engagement with China works--to the 
mutual good of people in both countries. Families with Children from 
China urges that both governments do all that they can to allow this 
overwhelmingly positive story to continue to flourish.

                                   - 

</pre></body></html>
